                              United States Department of State
                              and the Broadcasting Board of Governors

                              Office of Inspector General
Office of Inspector General

                              Semiannual Report to the Congress

                              April 1. 2006 to September 30, 2006
                               Summary of OIG Accomplishments


Financial Results:
Questioned costs
         Issued during the reporting period                                                                  $        795,000
         Management decision during the reporting period                                                     $         13,000
Recommendations for funds to be put to better use
         Issued during the reporting period                                                                  $15,602,000
         Management decision during the reporting period                                                     $        -0-

Investigative recoveries                                                                                     $        443,670

Investigative Results:
Cases opened ................................................................................................ 15
Cases closed .................................................................................................. 12
Judicial actions ............................................................................................... 16
Administrative actions .................................................................................... 11
Hotline and complaint activity ......................................................................... 275



Reports Issued:                                                                                               50


                            Picture on the front cover: Embassy Santiago, Chile



                                         Requests for additional copies of this
                                         publication should be addressed to:

                                                   Ofﬁce of Inspector General
                                                    U.S. Department of State
                                                      OIG/EX, Room 810
                                                    1700 North Moore Street
                                                      Arlington, VA 22209



                                        Department of State Publication 11371
                                                Ofﬁce of Inspector General
                           TABLE OF CONTENTS




EXECUTIVE SUMMARY ....................................................................................... 1
CONGRESSIONAL ACTIVITIES AND OUTREACH ............................................ 9

          DEPARTMENT OF STATE

AUDITS .............................................................................................................. 13
INSPECTIONS ................................................................................................... 29
INFORMATION TECHNOLOGY......................................................................... 45
INVESTIGATIONS............................................................................................... 47
APPENDIX 1: DEPARTMENT OF STATE INVESTIGATIVE ACTIVITIES.......... 53
APPENDIX 2: REPORTS ISSUED..................................................................... 55
APPENDIX 3: SAVINGS AND MORE EFFECTIVE USE OF RESOURCES ..... 59
   Table 1: Questioned Costs
   Table 2: Funds To Be Put To Better Use
APPENDIX 4: RESOLUTION OF REPORTS AND RECOMMENDATIONS ....... 61



          BROADCASTING BOARD OF GOVERNORS


AUDITS .............................................................................................................. .69
INFORMATION TECHNOLOGY.......................................................................... 73
INSPECTIONS .................................................................................................... 75
INVESTIGATIONS............................................................................................... 77
APPENDIX 1: BROADCASTING BOARD OF GOVERNORS INVESTIGATIVE
   ACTIVITES ................................................................................................... .79
APPENDIX 2: REPORTS ISSUED...................................................................... 81
APPENDIX 3: SAVINGS AND MORE EFFECTIVE USE OF RESOURCES ...... 83
   Table 1: Questioned Costs
    Table 2: Funds To Be Put To Better Use



LIST OF ABBREVIATIONS ................................................................................. 85
                          EXECUTIVE SUMMARY


The auditors, inspectors, investigators, and other professionals in the Ofﬁce of In-
spector General (OIG) promote effective management, accountability, and positive
change in the Department of State (Department), the Broadcasting Board of Gover-
nors (BBG), and the foreign affairs community. They provide leadership to:

•   promote integrity, efﬁciency, effectiveness and economy;

•   prevent and detect waste, fraud, abuse and mismanagement;

•   identify vulnerabilities and recommend constructive solutions;

•   offer expert assistance to improve Department and BBG operations;

•   communicate timely, useful information that facilitates decision-making and
    achieves measurable gains; and

•   keep the Department, BBG and the Congress fully and currently informed.

This report summarizes work carried out by OIG during the period April 1 through
September 30, 2006, which included the issuance of 50 reports of audits, inspec-
tions, and other reviews with recommendations to improve Department and BBG
programs and operations. A full list of reports issued by OIG during this period can
be found in Appendix 2.



Iraq Oversight

Supplemental funding of $1.7 million has enabled OIG to provide oversight of
Department activities in Iraq and Afghanistan in FY 2006. During this reporting
period, OIG performed a survey of anticorruption programs in Iraq. The survey
drew on OIG’s previous inspection report, issued last period, of Embassy Baghdad’s
rule-of-law programs and, in particular, that report’s key judgment that “Basic to
the success of all U.S. hopes for democracy and good governance in Iraq is an ef-
fective anti-corruption regime.” Conducted in collaboration with a team from the
Special Inspector General for Iraq Reconstruction (SIGIR), which issued a parallel
audit report, the OIG survey included an inventory of U.S. government funding for
anticorruption programs in Iraq and an analysis of the work done by the Embassy’s
13-member anticorruption working group. The survey found that the interagency


Ofﬁce of Inspector General Semiannual Report to the Congress, April 1, 2006 to September 30, 2006   1
process for promoting public integrity in Iraq is working reasonably well, but given
the general recognition that corruption in Iraq is widespread and with less than $65
million in U.S. funding for this purpose, a greater U.S. effort with more interagency
cooperation and greater international support were needed. The survey also found
that the institutional framework for Iraqi anticorruption activities is in place, with a
Board of Supreme Audit, a Commission on Public Integrity, and Inspectors General
for each ministry, but it is fragile, and improved collaboration among the three insti-
tutions and the Iraqi courts is a priority.

A joint OIG survey with SIGIR identiﬁed funding received and expended by the
Bureau of International Narcotics and Law Enforcement Affairs (INL) that was
earmarked for Iraq-related activities and evaluated INL accounting procedures for
those funds. Of nearly $1.5 billion available to INL for activities in Iraq, the bureau
had obligated about $1.312 billion, or about 88 percent, as of December 31, 2005.
INL was able to track Iraqi-related funds received and allotted to major programs
and procurement actions, and ﬁnancial information forwarded to the Department’s
Bureau of Resource Management was generally accurate. However, some funding
recipients, primarily the Department of Justice and its independent agencies, did not
adequately provide ﬁnancial information on the status of the expenditure of funds
received from INL through memoranda of agreement. In response to the report’s
recommendations, INL has initiated or proposed solutions that will strengthen ﬁnan-
cial accountability and internal controls, including enhanced liaison between INL and
the Justice Department to foster better, more timely ﬁnancial reporting by the Justice
Department for activities in Iraq that are funded through INL.



Protection of People and Facilities

One of the most pressing challenges for the Department and BBG continues to
be providing for the protection of people, information, and facilities. Over this
period, OIG issued seven classiﬁed security annexes in conjunction with manage-
ment reviews of embassies and constituent posts in Panama, El Salvador, Costa Rica,
Latvia, Chile, Hungary, and Argentina. The details of the annexes are discussed in
a classiﬁed annex to this report. OIG also issued a summary report of personal
security awareness at 14 missions inspected during FY 2006 and noted some success
in addressing compound security upgrades at existing facilities, although physical and
technical security vulnerabilities still accounted for almost half of OIG recommen-
dations issued during the period, including the need to upgrade access control points
at mission compounds.



 2       Ofﬁce of Inspector General Semiannual Report to the Congress, April 1, 2006, to September 30, 2006
OIG’s audit of domestic emergency preparedness at BBG’s Washington Metropoli-
tan facilities found that, although BBG had implemented an Occupant Emergency
Program, the guidance was outdated and did not fully comply with federal regula-
tions.



Financial Management

During this reporting period, OIG issued 15 audit reports addressing issues related
to ﬁnancial statements, contracts and grants, airline travel, purchase card programs,
travel advances, and other ﬁnancial management concerns. OIG’s audit of the
Department’s reporting of aircraft and aircraft parts determined that the Depart-
ment had underreported the cost and number of its aircraft and aircraft parts, and
that the Department’s FY 2004 ﬁnancial statements had underreported the value of
aircraft and aircraft parts by $162 million. As a result, the Department has initiated
a review of its aviation program’s structure and responsibilities, with a view toward
more centralized management.

An audit of the Department’s identiﬁcation and collection of value-added taxes
(VAT) overseas found that the Department did not have an adequate process to
identify and collect VAT reimbursements, and that problems in obtaining necessary
documentation related to a construction contract could affect the Department’s abil-
ity to collect an estimated $5.9 million in VAT reimbursements. OIG recommended
that the Department implement standard policies for submitting requests for reim-
bursement from host governments, aggressively pursue tax relief agreements before
undertaking construction projects, and review ongoing construction projects to
identify opportunities for collecting additional VAT reimbursements.

A review of International Cooperative Administrative Support Services (ICASS)
programs at 38 overseas posts inspected between October 2004 and April 2006
found that the Department has done a good job of consolidating ICASS into a
single administrative platform on new embassy construction projects, but additional
steps are needed in combining ICASS services for those missions that are not sched-
uled for new construction. The ﬁrst inspection conducted since the establishment of
the Global Financial Services Center (GFS-C) found that the effort to consolidate
Department ﬁnancial functions and responsibilities in Charleston, South Carolina,
has succeeded and that GFS-C provides excellent service and support to Depart-
ment bureaus and overseas posts. However, management controls in most of the
GFS-C operational areas need improvement, and coordination between GFS-C and
the Bureau of Administration’s Ofﬁce of Acquisition must be strengthened to im-
prove contract oversight.

Ofﬁce of Inspector General Semiannual Report to the Congress, April 1, 2006, to September 30, 2006   3
Quality-of-Life Reviews

During this reporting period, OIG conducted inspections of a group of ofﬁces
vital to quality-of-life issues for Department employees and their families serving
around the world, and found all to be well-run ofﬁces making important contribu-
tions to quality of life, but made recommendations for some improvements. The
Family Liaison Ofﬁce, which helps family members address problems commonly
encountered in living and working overseas, needed to set its priorities carefully to
address the challenging tension between its traditional advocacy role and the organi-
zational expectation that it show measurable successes on family employment issues.
The Ofﬁce of Overseas Schools effectively manages the educational programs of
the Department and executes its $9.2-million school grants program in accordance
with regulations but needed to more clearly articulate its goals and objectives and
create a strategic plan. The Ofﬁce of Medical Services does a commendable job of
safeguarding the physical and mental health of ofﬁcial Americans and their families
at U.S. missions abroad and of Department’s domestic workforce, but could real-
ize savings by outsourcing speciﬁc, discrete functions such as laboratory services
and implementing a fee-for-service program that would pass the cost of outpatient
care to an employee’s insurance company. The Ofﬁce of Commissary and Recre-
ation Staff delivers timely, high-quality services to approximately 130 commissary
and recreation associations worldwide, but the $3.3-million Central Commissary and
Recreation Fund needed better oversight from its board of directors, including a
review of expenditures since 2000. The Ofﬁce of Casualty Assistance’s centralization
of support to Department employees has systematized assistance and improved the
quality of service to the families of victims.



Information Security

The Department and BBG continue to make progress on strengthening information
security programs and practices and recognize that more must be done to effectively
administer and manage information security programs. The Federal Information
Security Management Act (FISMA) requires OIG to review and evaluate develop-
ment, documentation, and implementation of comprehensive plans to protect the
conﬁdentiality, integrity, and availability of mission-critical information and systems.
OIG’s evaluation identiﬁed a number of issues, including documentation related to
missionwide security programs’ planning and management, system and policy access
controls, and inadequate separation of key information technology (IT) duties.

 4       Ofﬁce of Inspector General Semiannual Report to the Congress, April 1, 2006, to September 30, 2006
During its FY 2006 FISMA reviews and information security inspections, OIG iden-
tiﬁed several areas that must be addressed by the Department’s Chief Information
Ofﬁcer, including formalizing the Department’s Information Systems Security Ofﬁ-
cer (ISSO) initiative to include performance assessment and training of those per-
forming ISSO duties; developing and implementing a system security program plan
to administer information security Departmentwide; ensuring complete inventories
of IT assets and contractor systems and verifying security levels assigned to IT appli-
cations and systems; identifying the total number of employees requiring IT security
awareness training; addressing fragmentation in the Department’s certiﬁcation and
accreditation process; and including IT security ﬁndings identiﬁed by outside sources
in the Plan of Action and Milestones process.

Areas of improvement since OIG’s FY 2005 FISMA review included internal and
external reporting of computer security incidents, and signiﬁcant progress in ad-
dressing privacy requirements.



Law Enforcement

A joint investigation with the U.S. Agency for International Development (USAID)
OIG determined that an FSN cashier serving at an embassy in Africa embezzled
more than $200,000 from USAID and the Department. The cashier pleaded guilty
to embezzlement and was sentenced to 30 months’ imprisonment and restitution of
$214,000. As part of OIG’s Passport Sentinel initiative, OIG investigated three sepa-
rate instances of private citizens in California who fraudulently obtained valid U.S.
passports for false identities established using the names and Social Security numbers
of deceased infants.



Inspector General Activities

Inspector General Howard J. Krongard and Deputy Inspector General William E.
Todd traveled to Iraq and Jordan during September to meet with all leaders of the
Iraqi anticorruption mechanism, including all 29 Iraqi Inspectors General whom IG
Krongard addressed, the heads of the Board of Supreme Audit (BSA) and the Com-
mission on Public Integrity, and the Prime Minister’s Chief of Staff. Recommenda-
tions made by IG Krongard, including the appointment of U.S. advisors to the Iraqi
IGs and to the BSA, have been adopted by Embassy Baghdad.



Ofﬁce of Inspector General Semiannual Report to the Congress, April 1, 2006, to September 30, 2006   5
                                                The IG and his deputy also met with
                                                many senior Embassy Baghdad person-
                                                nel and Department of Defense and
                                                USAID leaders, reviewed the construc-
                                                tion of the new embassy compound in
                                                Baghdad and the facilities for construc-
                                                tion workers, and visited provincial
                                                reconstruction teams in Baghdad and
                                                Babil Province and the Provincial Coun-
                                                cil Chairman, Deputy Governor, Chief
                                                of Police, and Chief Justice of Babil
                                                Province. They also met with SIGIR
                                                personnel to begin the transition process
 IG Howard Krongard and Deputy IG Bill Todd     mandated by the recent Defense Autho-
 on the helopad in Baghdad                      rization Act.

In Jordan, the IG and Deputy IG met with members of the Jordan International
Police Training Center in both Amman and at the Center to discuss the future of the
training center. At Embassy Amman, the Inspector General met with senior em-
bassy personnel and, as is his practice at all posts he visits, with entry-level ofﬁcers
(ELOs), who praised their leadership but were looking for even more opportuni-
ties to do public outreach in the host country. As a result of the IG’s followup, the
ELOs are being offered more opportunities to perform public outreach activities as
part of their assigned work.

In his role as Chair of the Board of External Auditors of the Organization of
American States (OAS), the Inspector General presented the Board’s 2005 Report to
the OAS Permanent Council, detailed the activities of the Board, highlighted certain
internal control and programmatic weaknesses that had been identiﬁed by the Board,
and made recommendations to the Permanent Council on how these issues could be
addressed. At the request of the Secretary General of the OAS, Mr. Krongard also
attended the OAS General Assembly session in the Dominican Republic to provide
advice and consultation regarding budgeting, ﬁnancial, and managerial matters.

The Inspector General and OIG staff met with various international visitors, includ-
ing the Comptroller General of Panama, the Inspector General of the Ministry of
Foreign Affairs of Canada, the Commissioner of Iraq’s Commission on Public
Integrity, and leaders of the Ministry of Personnel of the People’s Republic of
China, to discuss oversight and transparency in government operations. The
Inspector General and Assistant Inspectors General from each ofﬁce briefed the
United Nations Under-Secretary-General for Internal Oversight Services and her
chief of staff on OIG structure, stafﬁng, and working and reporting relationships.


 6       Ofﬁce of Inspector General Semiannual Report to the Congress, April 1, 2006, to September 30, 2006
The IG participated on various Department committees, spoke before various
groups including a presentation to the annual Foreign Service nationals (FSN)
worldwide conference, and hosted quarterly meetings of the Intelligence Community
Inspectors General Forum and the Inspection and Evaluation Committee of the
President’s Council on Integrity and Efﬁciency.




Ofﬁce of Inspector General Semiannual Report to the Congress, April 1, 2006, to September 30, 2006   7
8   Ofﬁce of Inspector General Semiannual Report to the Congress, April 1, 2006, to September 30, 2006
    CONGRESSIONAL ACTIVITIES AND OUTREACH



Congressional Mandates and Requests

In response to legislative mandates and requests from Congress, OIG conducted the
following reviews during this semiannual period.

•   As mandated by the Federal Information Security Management Act of 2002,
    OIG conducted independent assessments of the Department’s and BBG’s
    information security systems by reviewing the overall effectiveness of each
    agency’s information security programs. (IT-I-06-03 and IT-I-06-04)
•   In response to a request by the U.S. Senate, Committee on Foreign Relations,
    OIG reported on the U.S. Speaker & Specialist Program Review, Bureau of Interna-
    tional Information Programs. (ISP-C-06-52)

•   Following a request from a U.S. Senator for assistance with regard to alleged
    wrongdoing by a foreign company, and by U.S. ofﬁcials in permitting fees to
    be paid to such company, representatives of OIG met with staff members
    of the relevant Senate committee and provided information.

•   As mandated by the Chief Financial Ofﬁcers (CFO) Act, as amended, OIG
    directed and monitored the following ﬁnancial statement audits and other work
    conducted by an independent public accountant:

    • Audit of the Foreign Service Retirement and Disability Fund’s 2005, 2004, and 2003
      Financial Statements (AUD/FM-06-37)

    • Audit of the International Boundary and Water Commission’s 2005 and
      2004 Financial Statements (AUD/FM-06-33)

    • Management Letter Related to the Audit of the International Boundary and Water
      Commission’s 2005 and 2004 Principal Financial Statements (AUD/FM-06-32)

    • Application of Agreed-Upon Procedures for Retirement, Health Beneﬁts, and Life
      Insurance Withholdings and Contributions (AUD/FM-06-40)

    The Inspector General and/or OIG staff also met on a number of occasions
with congressional staff members of GAO to review and comments on a variety
of projects and issues.


Ofﬁce of Inspector General Semiannual Report to the Congress, April 1, 2006, to September 30, 2006   9
Legislation Monitored

Bills reviewed and monitored by OIG legislative staff during this period included the
following:

•        S. 2285: A bill to amend the Inspector General Act by setting a 7-year term
         limit for Inspectors General and to allow Inspectors General to submit their
         budget requests directly to Congress.

•        S. 1803 and H.R. 2475: Fiscal Year 2006 Intelligence Authorization Act.

•        H. R. 4436: A bill to provide certain authorities for the Department of State, and
         for other purposes.

•        H. R. 4939: A bill to make emergency supplemental appropriations for the
         ﬁscal year ending September 30, 2006, and for other purposes.

•        H. R. 4603: A bill to amend the Public Health Service Act with respect to
         pandemic inﬂuenza, and for other purposes.



Implementation of the Government
Performance and Results Act and the
President’s Management Agenda

For each mission and bureau inspected, OIG reviews mission and bureau perfor-
mance plans and rightsizing issues. For example, OIG found that given the demands
of global repositioning, the consulate general in Hamilton, Bermuda, should be
restructured and its staff reduced. A two-ofﬁcer post would be sufﬁcient to manage
U.S. interests and provide a lessened but adequate level of consular services. In terms
of performance measurement, neither the Ofﬁce of Allowances, nor any other ofﬁce
in the Department, measures the effectiveness of Department of State Standard-
ized Regulations incentive allowances and differentials. As a result, the effectiveness
of the Department’s $80.9 million in expenditures to attract and retain personnel
at overseas hardship and danger pay posts cannot be demonstrated. The Ofﬁce of
Inspector General recommended that the Department establish a working group to
establish performance measures for Department of State Standardized Regulations
incentive allowances and differentials.


    10        Ofﬁce of Inspector General Semiannual Report to the Congress, April 1, 2006, to September 30, 2006
                        Department Outreach Activities

     As part of continuing efforts to promote accountability through better
    awareness of OIG’s role, mission, and services, OIG made presentations
    to four ambassadorial seminars and two Foreign Service ofﬁcer orienta-
    tions, as well as ﬁnancial management, general services ofﬁcer, and other
    courses offered by the Foreign Service Institute. With the support of the
    Department, OIG investigators have undertaken a proactive initiative
    to strengthen ﬁnancial accountability by providing fraud prevention and
    awareness training to Department personnel responsible for ﬁnancial sys-
    tems, contracts and grants, and procurement. The OIG fraud prevention
    and awareness program is presented to relevant bureau personnel and
    to all General Services Ofﬁcer courses at the Foreign Service Institute.
    Senior staff also met with Ambassadors and Deputy Chiefs of Mission
    preparing to depart for new assignments to discuss areas of emphasis in
    their missions and provide suggestions to assist in the management of
    their missions.




Ofﬁce of Inspector General Semiannual Report to the Congress, April 1, 2006, to September 30, 2006   11
12   Ofﬁce of Inspector General Semiannual Report to the Congress, April 1, 2006, to September 30, 2006
DEPARTMENT OF STATE
                                                      October 31, 2006


MEMORANDUM

TO:            The Secretary

FROM:          OIG – Howard J. Krongard

SUBJECT:       Semiannual Report to Congress, April 1 to September 30, 2006

I am pleased to transmit to you the Ofﬁce of Inspector General’s (OIG)
Semiannual Report to the Congress for the period ending September 30. This
report is required by the Inspector General Act of 1978, as amended, and covers
the work of this ofﬁce during the period indicated. The Act requires that you
transmit the report to the appropriate committees of the Congress by November
30, together with any comments you may wish to make.

A major focus of my work, and that of my staff, during this reporting period
has been oversight of Department activities in Iraq, particularly support for
anticorruption initiatives, accountability for Iraq-related funding, and preparation
with the Special Inspector General for Iraq Reconstruction for the transition
process mandated by the recent Defense Authorization Act. This is work that
would not have been possible without the $1.7 million in supplemental funding
provided by Congress.

Other OIG activities during the reporting period focused on key issues affecting
the programs and operations of the Department and BBG, including protection
of people and facilities, ﬁnancial management, quality of life, and information
security. These activities and our achievements are summarized in this report,
along with the required statistical data.
16   Ofﬁce of Inspector General Semiannual Report to the Congress, April 1, 2006, to September 30, 2006
                                          AUDITS




Survey of the Status of Funding for Iraq
Programs Allocated to the Department of
State’s Bureau of International Narcotics and
Law Enforcement Affairs as of December 31,
2005 (AUD/IQO-06-30)

This report presented the results of the joint survey by OIG and SIGIR of funding
for Iraqi-related activities by INL. The primary objectives were to identify funding
received and expended by INL from October 1, 2002, through December 31, 2005,
that was earmarked for Iraq and to evaluate INL accounting procedures for those
funds.

According to the Department’s Bureau of Resource Management (RM), as of
December 31, 2005, the Department received over $1.3 billion from two Iraq
Relief and Reconstruction Fund (IRRF) emergency supplemental appropriations
that provided program funding speciﬁcally supporting Iraqi-related activities. Of that
amount, INL received about $957.5 million, or 74 percent. In addition, the Depart-
ment of Defense provided about $532.2 million to assist programs managed by INL.
As of December 31, 2005, INL had obligated about $1,312.2 million, or about 88
percent of the funding received, and expended about $1 billion.

INL was able to track funds received and allotted to major programs and pro-
curement actions. Overall, INL accounted for Iraqi-related funds obligated and
monitored expenses and liquidations. Although extracting information from INL’s
accounting system on funds for Iraq was cumbersome, the ﬁnancial information for-
warded to RM was generally accurate. The OIG team recommended that INL better
document accounting adjustments and make electronic backups of its supplementary
accounting records.

Some funding recipients, however, did not adequately provide ﬁnancial informa-
tion on the status of their expenditure of funds received from INL. According to
an INL ofﬁcial, this situation has continued despite INL’s efforts to correct it. The
OIG team recommended that INL modify the memoranda of agreement so that
recipients’ ﬁnancial reports would better inform INL of the actual ﬁnancial status of
a program.


Ofﬁce of Inspector General Semiannual Report to the Congress, April 1, 2006, to September 30, 2006   17
INL has initiated or proposed solutions that will strengthen ﬁnancial accountability
and internal controls, particularly to foster better, more timely ﬁnancial reporting by
other funding recipients for activities in Iraq that are funded through INL.



CONTRACTS AND GRANTS

Application of Agreed-Upon Procedures
on Kellogg, Brown & Root Services, Inc.’s,
Revised Termination Settlement Proposal
(AUD/CG-06-25)

In response to a request from the Department’s Bureau of Administration, Ofﬁce of
Logistics Management, Ofﬁce of Acquisitions Management (A/LM/AQM), OIG
contracted with an independent public accounting ﬁrm to perform certain agreed-
upon procedures on Kellogg, Brown & Root Services, Inc.’s (KBR) March 17, 2005,
revised termination settlement proposal under Contract No. S-FBOAD-99-D-0016,
Task Order 57. The attestation sought to determine whether KBR’s revised proposal
conformed to the requirements of a standard proposal.

The independent accountant found that the KBR revised termination settlement
proposal included claims for unsupported and inappropriate costs concerning
services provided by its subcontractor, Morrison International Construction, Inc.
(Morrison). Speciﬁcally, in its termination settlement proposal of February 24, 2005,
Morrison included $53,173 for selected management personnel costs. The amounts
presented were estimates unsupported by any documentation. In addition, Morrison
included $527,753 in its proposal, which it identiﬁed as unabsorbed overhead on the
direct cost of terminated work. The law is well settled that post-termination unab-
sorbed overhead is not recoverable in a termination claim.

Although the total questioned amount associated with the management personnel
and unabsorbed overhead costs was $580,926, after adjustments for overhead, G&A,
and fee, the full amount of the questioned costs totaled $795,034. The independent
accountant recommended that A/LM/AQM disallow the full amount.




 18      Ofﬁce of Inspector General Semiannual Report to the Congress, April 1, 2006, to September 30, 2006
Application of Agreed-Upon Procedures on
Choctaw Archiving Enterprise’s Proposed
Direct Labor and Indirect Labor Rates and
Accounting System (AUD/CG-06-26)

In response to a request from A/LM/AQM, OIG contracted with an independent
public accounting ﬁrm to perform agreed-upon procedures on direct labor hour
and indirect expense rates proposed by Choctaw Archiving Enterprise (Choctaw)
on November 23, 2005. The independent accountant also reviewed Choctaw’s
accounting system to determine whether it was adequate to account for federal funds
under the proposed contract.

In general, the independent accountant found that Choctaw’s proposed direct labor
and indirect costs were excessive. Also, its review of Choctaw’s proposal had been
prepared on a ﬁxed-rate per-hour basis, a type of contract that does not require an
accounting system that differentiates between direct and indirect costs. (Billings
are based on time as presented on signed and approved timesheets.) Accordingly,
Choctaw’s accounting system was considered to be minimally adequate for purposes
of the contemplated contract. The independent accountant recommended that
A/LM/AQM use the recomputed rates included in its report and that the Depart-
ment contracting ofﬁcer’s representative periodically review Choctaw’s invoiced labor
charges based on supporting timesheets and other relevant documents. In summary,
the independent accountant recommended costs that were $1,985,783 less than the
costs proposed by the contractor for the base and four option years.



Agreed-Upon Procedures on American
Councils for International Education
(AUD/CG-06-28)

In response to a request from the Department’s Bureau of Educational and Cultural
Affairs (ECA), OIG contracted with an independent accounting ﬁrm to perform
agreed-upon procedures on the ﬁnancial management and reporting systems and the
ﬁnancial condition of the American Councils for International Education (ACIE) to
assist ECA in its review of ACIE.

The independent accountant found that ACIE’s accounting system identiﬁed the
source and application of funds for Federal awards and compared expenditures with


Ofﬁce of Inspector General Semiannual Report to the Congress, April 1, 2006, to September 30, 2006   19
budgeted amounts for each award in accordance with Ofﬁce of Management and
Budget Circular A-110 requirements. The independent accountant also found that
ACIE’s accounting records supported its Financial Status Reports and reimburse-
ment requests.

Regarding ACIE’s ﬁnancial condition, the independent accountant found that assets
and revenues exceeded liabilities and expenses, respectively, in 2005 and 2004, and its
ratio of current assets to current liabilities was signiﬁcantly lower than ratios at other
similar organizations. ACIE has, however, managed cash ﬂow through the use of its
lines of credit on its available balances of $1.8 million.



Agreed-Upon Procedures on Direct Labor
and Indirect Expense Rates Proposed by
Skidmore, Owings & Merrill (AUD/CG-06-29)

In response to a request from the Department’s Bureau of Overseas Buildings
Operations (OBO), OIG contracted with an independent accounting ﬁrm to per-
form agreed-upon procedures on direct labor and indirect expense rates proposed by
Skidmore, Owings & Merrill under a proposed contract to perform building design
services for a new consulate complex in Guangzhou, China.

The independent accountant found that the documentation provided by Skidmore,
Owings & Merrill in support of its cost proposal was insufﬁcient to justify its pro-
posed rates. The independent accountant computed new rates and recommended
that OBO use its recommended rates for pricing to be performed under the contem-
plated contract.



Agreed-Upon Procedures on Direct Labor
and Indirect Expense Rates Proposed by
Integrated Communications Solutions, Inc.
(AUD/CG-06-34)

In response to a request from A/LM/AQM, OIG contracted with an independent
accounting ﬁrm to perform agreed-upon procedures on direct labor and indirect
expense rates proposed by Integrated Communications Solutions, Inc. (ICS), under
a proposed contract to provide telecommunications services to the Department’s
Diplomatic Telecommunications Service Project Ofﬁce.


 20      Ofﬁce of Inspector General Semiannual Report to the Congress, April 1, 2006, to September 30, 2006
The independent accountant found that the documentation provided by ICS in sup-
port of its cost proposal was sufﬁcient to justify its proposed rates. Raytheon Com-
pany Intelligence and Information Systems (Raytheon) did not respond to requests
for documentation supporting its proposed rates. The independent accountant rec-
ommended that the rates proposed by ICS be used to price work under the contem-
plated contract. The independent accountant also recommended that A/LM/AQM
require Raytheon to provide a copy of its current Forward Pricing Rate Agreement
with the Department of Defense, in order to validate Raytheon’s proposed rates.



FINANCIAL MANAGEMENT

Application of Agreed-Upon Procedures
for Retirement, Health Beneﬁts, and Life
Insurance Withholdings and Contributions
(AUD/FM-06-40)

Under OIG’s direction, an independent external auditor performed the procedures
enumerated in Ofﬁce of Management and Budget Bulletin No. 06-03, Audit Require-
ments for Federal Financial Statements. These procedures were performed solely to
assist the Ofﬁce of Personnel Management (OPM) in assessing the reasonableness
of the Retirement, Health Beneﬁts, and Life Insurance withholdings and contribu-
tions as well as semiannual headcount information submitted by the Department.
The contractor did not identify any material differences in the amount for withhold-
ings and contributions in the Department’s payroll ﬁle and the amount submitted to
OPM. However, the contractor found that some employees’ ofﬁcial personnel ﬁles
did not contain the required forms.



Need to Improve Internal Controls Related to
Travel Advances (AUD/FM-06-39)

OIG performed work to identify internal control deﬁciencies related to the travel
advance process. OIG found that the Travel Manager (TM) application did not
adequately restrict users’ access and that the Department did not have an appropri-
ate process in place to authorize TM access or maintain a list of employees with high
levels of access. In addition, OIG identiﬁed concerns with controls over ensuring


Ofﬁce of Inspector General Semiannual Report to the Congress, April 1, 2006, to September 30, 2006   21
that cash and traveler’s checks were provided only to authorized individuals within
the allowed timeframes. OIG also found that a monthly report of travel advances
was not forwarded to bureaus for review. In addition, the bureau at which OIG per-
formed its work did not have a process to properly oversee travel advances.

RM is reviewing outstanding travel advances in preparation for migrating data to the
new ﬁnancial management system. However, OIG recommended that RM expand
this effort to implement the OIG recommendations.



Audit of the Department’s Identiﬁcation and
Collection of Value-Added Taxes Overseas
(AUD/FM-06-38)

As part of its responsibility to oversee Department management, OIG conducted
an audit of value-added tax (VAT) issues at four posts overseas, speciﬁcally to
determine whether the Department was properly identifying and collecting VAT
reimbursements and accounting for VAT transactions. The OIG team found that
the Department did not have an adequate process to identify and collect VAT reim-
bursements, nor did it have an adequate process to account for VAT. Posts were not
effectively recording, tracking, and maintaining controls over VAT transaction data
because of limitations with the overseas ﬁnancial management system. Further, the
Department had not effectively tracked and reported the amount of VAT that it had
requested but had not yet received from host governments. Also, the Department
could not determine the total amount of VAT reimbursements that were owed to it,
and VAT receivables were not included on the Department’s ﬁnancial statements.

OIG recommended that the Department implement standard policies for submitting
requests for reimbursement from host governments; aggressively pursue tax relief
agreements before beginning construction projects; include revised contract clauses
related to VAT in new construction contracts; and review ongoing construction proj-
ects to identify opportunities for collecting additional VAT reimbursements. OIG
also recommended that the Department implement a solution so that its ﬁnancial
management system allows posts to record, track, and maintain control over VAT
transactions; issue standard policies on recording VAT receivables; and accurately
report VAT receivables on the Department’s annual ﬁnancial statements.




22      Ofﬁce of Inspector General Semiannual Report to the Congress, April 1, 2006, to September 30, 2006
Audit of the Foreign Service Retirement
and Disability Fund’s 2005, 2004, and 2003
Financial Statements (AUD/FM-06-37)

Under OIG’s direction, an independent contractor audited the Foreign Service
Retirement and Disability Fund’s (FSRDF) ﬁnancial statements as of the end of
FY 2005, FY 2004, and FY 2003, to report on whether the statements presented
fairly FSRDF’s ﬁnancial position and results of ﬁnancial operations in accordance
with generally accepted accounting principles, whether FSRDF had an internal
control structure that provided reasonable assurance of achieving internal control
objectives, and whether FSRDF complied with applicable laws and regulations.

The independent external auditor issued an unqualiﬁed opinion on FSRDF ﬁnancial
statements as of September 30, 2005, and did not identify any reportable conditions
related to internal control or material instances of noncompliance.



Audit of the International Boundary and
Water Commission’s 2005 and 2004 Financial
Statements (AUD/FM-06-33)

Under OIG’s direction, an independent external auditor audited the International
Boundary and Water Commission (USIBWC), United States and Mexico, U.S. Sec-
tion’s (USIBWC) ﬁnancial statements as of the end of FY 2005 and FY 2004, to
report on whether the statements presented fairly USIBWC’s ﬁnancial position and
results of ﬁnancial operations in accordance with generally accepted accounting prin-
ciples, whether USIBWC had an internal control structure that provided reasonable
assurance of achieving internal control objectives, and whether USIBWC complied
with applicable laws and regulations.

The independent external auditor issued an unqualiﬁed opinion on USIBWC’s ﬁnan-
cial statements as of September 30, 2005, and did not identify any material weak-
nesses or material instances of noncompliance.




Ofﬁce of Inspector General Semiannual Report to the Congress, April 1, 2006, to September 30, 2006   23
Management Letter Related to the Audit of
the U.S. Department of State 2005 and 2004
Principal Financial Statements
(AUD/FM-06-32)

Under generally accepted auditing standards, auditors performing ﬁnancial statement
audits are encouraged to report, in a separate management letter, internal control
weaknesses that do not rise to the level necessary to be reported in the ﬁnancial
statement opinion. During the above audit, the independent external auditor identi-
ﬁed internal control weaknesses relating to USIBWC’s internal evaluations, property
and equipment, personnel issues, information security, suspense accounts, deferred
maintenance, accounts receivable, contract accruals, and ﬁnancial reporting. The
auditor recommended that USIBWC take appropriate action to address these weak-
nesses.



Assessment of Airline Travel (AUD/FM-06-23)

As part of an effort to maintain adequate internal controls over OIG operations and
support Department efforts to improve controls over travel, OIG assessed its airline
travel policies and practices to determine whether it had effective controls and to
identify areas for potential cost savings. OIG identiﬁed areas where OIG’s controls
should be improved and began taking appropriate actions to correct the identiﬁed
weaknesses.

OIG determined that performing a similar assessment would be beneﬁcial for other
bureaus and ofﬁces, and therefore, to assist them, it provided the Department with
the assessment plan it used. The plan focused on premium-class travel requirements
and controls over unused airline tickets and included steps to obtain information
on the type and cost of airline travel, which would be useful for monitoring travel
trends and making budgeting decisions. OIG emphasized that periodic assessments,
using the assessment plan or a similar tool, should be an integral component of the
Department’s controls over and oversight of airline travel.




 24     Ofﬁce of Inspector General Semiannual Report to the Congress, April 1, 2006, to September 30, 2006
INTERNATIONAL PROGRAMS


Audit of the Department’s Reporting of
Aircraft and Aircraft Parts (AUD/IP-06-35)

At INL’s request, OIG began an audit at INL’s Ofﬁce of Aviation at Patrick Air
Force Base in Florida, where it learned that the Department might not have reported
all aircraft and parts inventory on its annual ﬁnancial statements. Because of the
magnitude of the potentially unreported assets and to assist the Department, OIG
narrowed its work to determine whether INL had appropriate controls to track and
report its aircraft and aircraft parts. Additionally, at the request of the certiﬁed public
accountants responsible for auditing the Department’s ﬁnancial statements, OIG
conducted work in Colombia to determine the accuracy of the Department’s report-
ing on aircraft and parts.

OIG found that the Department underreported the cost, value, and number of its
aircraft and aircraft parts. In fact, the Department’s FY 2004 ﬁnancial statements
underreported by $162 million the cost of its aircraft and aircraft parts. Additionally,
the Department did not include all aircraft in its March 2005 report to the General
Services Administration. The Department could not accurately report the number of
aircraft it owned because it had ineffective controls to track and report its air ﬂeet.
As a result, government managers, Congress, and the public did not have accurate
and complete information regarding the Department’s air ﬂeet.

The Department agreed with OIG’s recommendations to improve the accountabil-
ity and reporting of aircraft and aircraft parts. As a result of OIG’s work, INL has
initiated a review of its aviation programs, structure, and responsibilities with a view
toward more centralized management.




Ofﬁce of Inspector General Semiannual Report to the Congress, April 1, 2006, to September 30, 2006   25
26   Ofﬁce of Inspector General Semiannual Report to the Congress, April 1, 2006, to September 30, 2006
                                  INSPECTIONS


During this reporting period, the Ofﬁce of Inspections (ISP) published 11 reports
of inspections of Department bureaus and ofﬁces and eight reports of overseas
missions. These reports focused on executive direction, program implementation,
resource management, quality of life issues, and management controls. In addition,
ISP published a program survey, a program review, and two summary reports.



IRAQ PROGRAM REVIEW

Survey of Anticorruption Programs, Embassy
Baghdad, Iraq (ISP-IQO-06-50)

OIG performed a survey of anticorruption programs in Iraq, that drew on OIG’s
previous inspection report, issued last period, of Embassy Baghdad’s rule-of-law
programs and, in particular, that report’s key judgment that “Basic to the success of
all U.S. hopes for democracy and good governance in Iraq is an effective anticorrup-
tion regime.” Conducted in collaboration with a team from SIGIR, which issued
a parallel audit report, the OIG survey included an inventory of U.S. government
funding for anticorruption programs in Iraq and an analysis of the work done by the
Embassy’s 13-member anticorruption working group.

Engaging Iraqis to design an anticorruption regime for the future was seen as es-
sential for success but far from fully achieved. U.S. government and nongovernment
personnel working on anticorruption were committed to this important goal but
recognized it as a long-term effort.

As of August 2006, U.S. government funding directed speciﬁcally and solely toward
anticorruption programs had been modest, amounting to under $65 million. De-
spite the fact that attacking corruption was among the top U.S. priorities in Iraq, this
amount represented less than .003 percent of total IRRF funding. Non-U.S. donor
funding had been even less robust.

The OIG team found that a recently energized embassy anticorruption working
group chaired by the embassy’s economic counselor had agreed upon a comprehen-
sive strategy for U.S. anticorruption assistance to Iraq. The interagency process for
promoting public integrity was working reasonably well. However, given the general

Ofﬁce of Inspector General Semiannual Report to the Congress, April 1, 2006, to September 30, 2006   27
recognition that corruption in Iraq is widespread and the modest funding thus far,
a greater U.S. effort with more interagency cooperation and greater international
support were needed. The chairman’s request for increased stafﬁng to deal with the
anticorruption effort was also warranted and should be granted.

The survey also found that the institutional framework for Iraqi anticorruption activ-
ities was in place, with a Board of Supreme Audit, a Commission on Public Integrity,
and Inspectors General for each ministry, but it was fragile. Judicial prosecutions
of corruption cases had been few. Improved collaboration among the three institu-
tions and between them and the Iraqi courts was a priority. Training for the staff of
these three principal institutions was ad hoc and uneven, and the establishment of a
training facility serving the needs of these institutions a priority. Differences of view
on ownership, however, had divided both Iraqi principals and American consultants.
Iraqi and U.S. ofﬁcials had to overcome their differences, whether actual or apparent,
so that a training facility could soon be established.



DOMESTIC BUREAUS

Inspection of Global Financial Services – Charleston
(ISP-I-06-33)

The consolidation of the Department’s ﬁnancial functions and responsibilities in
Charleston, SC, had succeeded. The Department’s associated personnel reductions
in Washington, DC, and Paris, France, occurred in accordance with all regulatory
requirements and addressed the concerns and needs of affected personnel. Overall,
Global Financial Services-Charleston (GFS-C) provided excellent service and sup-
port to Department bureaus and overseas posts.

Management controls in most of the GFS-C operational areas needed improvement.
To illustrate, the majority of individuals certifying payments domestically did not
have certifying ofﬁcer authority; nonetheless, they certiﬁed payments amounting to
over $6 billion in FY 2005. In addition, the fund balance in the Department’s Cen-
tral Financial Management System with Treasury reconciliation showed an accumu-
lated $256 million difference between the two.

The compensation plan for Department employees serving in Iraq was found to be
virtually unworkable and complicated. The system’s rules were difﬁcult to under-
stand, and various categories of civilian personnel were affected differently.


28      Ofﬁce of Inspector General Semiannual Report to the Congress, April 1, 2006, to September 30, 2006
Coordination between GFS-C and A/LM/AQM must be strengthened. Contract
documentation was not always available, and the designations of contracting ofﬁcer’s
representatives (COR) did not exist or were unavailable.

                              Quality of Life Reviews

    OIG conducted several inspections of Department ofﬁces that are respon-
    sible for quality of life issues for Department employees and their families
    around the world. These ofﬁces provide services that can affect morale at
    post and a mission’s ability to attract and retain staff. The Family Liai-
    son Ofﬁce (FLO), Ofﬁce of Medical Services, Ofﬁce of Overseas Schools
    (OPR/OS), Commissary and Recreation Staff, Ofﬁce of Allowances, and
    the Ofﬁce of Casualty Assistance were all well run ofﬁces making impor-
    tant contributions to quality of life issues, but the inspections resulted in
    recommendations for improvement. (See the individual summaries for
    each inspection in this report.)

    During the same period, OIG’s overseas inspections reﬂected the ef-
    fectiveness of the quality of life ofﬁces. The inspection reports for U.S.
    embassies in Budapest, Buenos Aires, Hamilton, Riga, San Jose, and
    Santiago characterized the community liaison ofﬁce (CLO) program as
    excellent. The quality of the CLO program was, in part, due to the support
    and training coordinators received from FLO. Embassy Santiago did not
    fund CLO training for its coordinators, and the OIG team informally recom-
    mended that the post fund such training.

    The CLO program is concerned with one of the most important issues
    to Foreign Service families: spousal employment. OIG’s report on FLO
    made recommendations to improve the administration of spousal employ-
    ment initiatives. For example, this need was reﬂected in OIG’s inspection
    of Embassy Budapest, which was having difﬁculty funding the program
    that provides employment and skills-building assistance to spouses. In
    Europe, hiring spouses was often less expensive than hiring local employ-
    ees.

    Overseas health units received high marks at the posts inspected. The
    regional medical and psychiatric ofﬁcers made regular visits to the posts.
    Inspection reports of U.S. embassies in Panama and Buenos Aires made
    recommendations to evaluate the health care needed at those posts.

    The quality of overseas schools varied but was generally good. In Buda-
    pest, Buenos Aires, Riga, and Santiago, embassy employees rated the
    schools as excellent. In Hamilton, no schools had been deemed adequate
    by OPR/OS. The inspection team in Hamilton informally recommended
    that the regional educational ofﬁcer visit the post to discuss this issue.



Ofﬁce of Inspector General Semiannual Report to the Congress, April 1, 2006, to September 30, 2006   29
Inspection of the Family Liaison Ofﬁce (ISP-I-06-29)

FLO makes an important contribution to the Department’s goal of having a high-
quality workforce by helping family members address problems commonly encoun-
tered in working and living overseas. The ofﬁce was addressing a challenging tension
between its traditional advocacy role and the organizational demand that it show
measurable successes on family employment issues. The ofﬁce needed to set its
priorities carefully to avoid diluting its programs through lack of personnel or budget
resources.

FLO served a signiﬁcant number of walk-in clients on sensitive personal matters,
but had inadequate space to perform all of its functions while respecting the conﬁ-
dentiality of its clients. The solution to this issue involved displacing a small ofﬁce
contiguous to FLO and expanding into that space. The Bureaus of Administration
and Human Resources must cooperate in relocating the adjacent ofﬁce as soon as
possible.

For the past three years, FLO had requested funding for a pilot phase-equalization
program to assist posts in hiring eligible family members for jobs that would normal-
ly go to foreign nationals. Department management should evaluate this initiative in
light of its overall priorities and either fund a pilot project or remove this program
from the agenda.



Inspection of the Bureau of Administration,
Ofﬁce of Overseas Schools (ISP-I-06-36)

The Bureau of Administration’s Ofﬁce of Overseas Schools (A/OS) was found to
effectively manage the educational programs of the Department. The ofﬁce had a
staff of exceptionally qualiﬁed, caring, and dedicated education professionals who
were committed to the well-being of students. The ofﬁce executed its $9.2 million
school grants program in accordance with regulations but could do a better job by
more clearly articulating its goals and objectives and creating a strategic plan.

The Department successfully absorbed a large increase in grant funds from appropri-
ations to upgrade security at overseas schools (the Soft Targets Program). However,
there were no consistent security standards applicable to schools, and the responsibil-
ities of the various ofﬁces involved in the security program in Washington were not

30      Ofﬁce of Inspector General Semiannual Report to the Congress, April 1, 2006, to September 30, 2006
clearly deﬁned. The OIG team recommended that the Bureau of Administration
establish and fund a position to supplement existing security and public outreach
programs for overseas schools.



Inspection of the Ofﬁce of Medical Services
(ISP-I-06-34)

The Ofﬁce of Medical Services (MED) commendably fulﬁlled its mission of safe-
guarding the physical and mental health of ofﬁcial Americans and their families at
U.S. missions abroad and of the Department’s domestic workforce. To systematize
its operations and improve quality control, MED clariﬁed who was entitled to its
health services abroad, was arranging a formal agreement with the Peace Corps to
provide for cooperation in locations where it and the Department were both present,
and was in the ﬁnal phases of drafting a Quality Systems Manual based on the Inter-
national Standards Organization’s (ISO) ISO 9001-2000 quality standards.

MED had taken seriously its role of protecting against the threat of avian inﬂuenza
and worked cooperatively with the Department’s Senior Coordinator for Avian Inﬂu-
enza and with other relevant federal agencies, notably the Department of Defense.

MED did not fully comply with certain administrative provisions of the Health
Insurance Portability and Accountability Act of 1996 and the Privacy Act of 1974,
which protect the security and conﬁdentiality of health information. Written poli-
cies and procedures for the use and disclosure of protected health information were
needed, and all ﬁles and notes on patients must be included in the patient’s ofﬁcial
medical records.

The President’s Management Agenda requires federal agencies to explore ways
to minimize costs while enhancing performance and service. MED could realize
savings by outsourcing speciﬁc, discrete functions such as laboratory services, oc-
cupational health services, the examination clinic, and medical informatics. Another
potentially signiﬁcant cost savings would arise from implementing a fee-for-service
program that would pass the cost of outpatient care to an employee’s insurance com-
pany instead of the U.S. government.




Ofﬁce of Inspector General Semiannual Report to the Congress, April 1, 2006, to September 30, 2006   31
Inspection of the Bureau of Administration,
Ofﬁce of Commissary and Recreation Staff
(ISP-I-06-35)

The Ofﬁce of Commissary and Recreation Staff delivers timely, high-quality services
to approximately 130 commissary and recreation associations worldwide. This small
ofﬁce effectively performed its core functions, keeping associations ﬁnancially viable
and operating in compliance with Department regulations.

The Central Commissary and Recreation Fund, a $3.3 million fund established to
support commissary operations overseas, needed better oversight from its board of
directors. The OIG team recommended that the Bureau of Administration convene
the Central Commissary and Recreation Fund’s board of directors and implement
measures to manage the fund in accordance with the bylaws, including a review of
expenditures since 2000. The team also recommended that the Bureau of Adminis-
tration develop a strategy to address the impending resource shortfall in the Central
Fund and include the strategy in its FY 2008 Bureau Performance Plan.



Inspection of the Ofﬁce of Casualty
Assistance (ISP-I-06-28)

The Ofﬁce of Casualty Assistance (OCA) provided an excellent example of atten-
tion to contingency planning. Its director since 1999 designed a model for the ofﬁce
that could address mass casualty situations while providing clients with personal
caseworker support. The small, select OCA staff oversaw several well-trained and
committed crisis support teams, which served as a mechanism for enhancing the
ofﬁce’s capacity in times of crisis. OCA’s centralization of support to Department
employees had systematized assistance and improved the quality of service to the
families of victims.




 32     Ofﬁce of Inspector General Semiannual Report to the Congress, April 1, 2006, to September 30, 2006
            Memorandum Report, International Cooperative
             Administrative Support Services (ISP-I-06-38)

    Based on a review of the International Cooperative Administrative Support
    Services (ICASS) program at 38 posts between October 2004 and April
    2006, the OIG team found that the Department had done a good job of
    consolidating ICASS services into a single administrative platform on all
    new embassy compound construction projects but had not been as suc-
    cessful in combining ICASS services for embassies that were not sched-
    uled for a new embassy compound. OIG inspection reports in FY 2005
    and FY 2006 consistently noted that agencies overseas continued to resist
    subscribing to the full range of administrative services offered by ICASS.
    The OIG team identiﬁed duplicative administrative services at 29 of the 38
    inspected posts in FY 2005 and FY 2006.

    OIG noted examples of consolidation producing cost savings and made
    recommendations to address identiﬁed issues. Cost savings had been
    achieved at the U.S. mission in France, Embassy Lilongwe, and at posts
    with new embassy compounds that will contain a single administrative
    platform. The OIG team recommended that the Department issue guid-
    ance that addresses problems associated with pooling assets of different
    agencies and issue a cable that identiﬁes guidance and site assistance
    available to missions, which will facilitate quicker responses to surge
    agencies’ requests for operational support.




Inspection of the Bureau of Population,
Refugees and Migration (ISP-I-06-40)

The Bureau of Population, Refugees, and Migration (PRM) managed the Depart-
ment’s second largest program budget, with approximately $997 million expended
in FY 2005. PRM was found to have a well-deserved reputation for professionalism
and competent and effective management. Changes in the bureau’s operational en-
vironment, such as the decline in the number of refugees worldwide, had been more
than offset by increased numbers of internally displaced persons and other persons
of concern. Meanwhile, the conceptual frameworks for the international humanitar-
ian system and U.S. foreign assistance programs were being substantially redeﬁned,
even as resources to support humanitarian activities were declining. These changes
held signiﬁcant implications for the bureau’s mission and ways of doing business.
The OIG team found that addressing these challenges and opportunities successfully
will require vision, proactive leadership, an enhanced capacity for strategic planning,
and more active public diplomacy and public affairs efforts.

Ofﬁce of Inspector General Semiannual Report to the Congress, April 1, 2006, to September 30, 2006   33
The bureau received high marks for the effectiveness of its programs and the efﬁ-
ciency with which it managed its contributions, grants, and cooperative agreements.
Nevertheless, the bureau had correctly identiﬁed a need to further strengthen its
grants management, performance measurement, and monitoring and evaluation
functions. To adjust to its changing roles and responsibilities, the bureau must make
more efﬁcient use of existing staff and consider some increases in administrative
resources.



Inspection of the Ofﬁce of Civil Rights (ISP-I-06-41)

The Ofﬁce of Civil Rights (S/OCR) was ineffective in ensuring that Equal Employ-
ment Opportunity (EEO) and diversity concerns were properly integrated into the
Ofﬁce of the Secretary’s Bureau Performance Plan and the Department’s strategic
and performance planning process. This failure marginalized the effectiveness of
S/OCR’s programs at all levels. The OIG team recommended that S/OCR establish
a process to correct this.

One-third of all authorized S/OCR positions were vacant, which affected S/OCR
morale and contributed to its backlog of EEO complaints. The ofﬁce’s new director
had initiated a review of all position descriptions and the entire ofﬁce structure, ini-
tiatives that needed to be completed promptly. Because it must recruit new staff and
train them in the Equal Employment Opportunity Commission processes, S/OCR’s
new leadership had an unparalleled opportunity to evaluate the existing workﬂow
and rebuild the ofﬁce in line with current priorities.

S/OCR’s outreach unit focused an inordinate amount of its limited resources on
commemorative events, rather than devoting its attention to mandated programs
for Hispanic and disabled persons, women, and to the identiﬁcation and analysis of
EEO barriers. The OIG team recommended a review and restructuring to make re-
sources available for diversity and outreach activities that would yield greater measur-
able results.



Review of the Bureau of Diplomatic Security’s
Revocation Process for Security Clearances
(ISP-I-06-43)

The Bureau of Diplomatic Security (DS) equitably administered the process for the
revocation of security clearances, known as the adverse action process. DS investi-

 34     Ofﬁce of Inspector General Semiannual Report to the Congress, April 1, 2006, to September 30, 2006
gators’ and adjudicators’ actions appeared free of bias or prejudice and were based
on speciﬁed investigative and adjudicative guidelines and on Department standards.
However, DS did not have a process to follow up on those cases that contained a
conditional reinstatement of the security clearance.

Employees could appeal the proposed revocation of their security clearance to a
three-member appeals panel, but the appeals panel did not have a speciﬁed time
frame in which to meet, which could further delay the process. The introduction of
new information or the involvement of outside entities could also greatly affect the
time for completing an adverse action case. In the cases examined, the appeals panel
took from three to 13 months to render the Department’s ﬁnal decisions after DS
had transmitted the employees’ appeals.

                        Fraud Detection and Prevention

    In its ongoing compliance with recommendations made in OIG’s Manage-
    ment (Review of Visa and Passport Fraud Prevention Programs) (ISP-CA-
    05-52), the Bureau of Consular Affairs (CA) has signiﬁcantly increased the
    resources and attention devoted to fraud detection and prevention. CA
    reorganized its Ofﬁce of Fraud Prevention Programs into geographic units,
    strengthened the fraud prevention component of the Department’s consul-
    ar training program, and improved intelligence sharing, data mining, and
    investigative cooperation with the Department of Homeland Security and
    other ofﬁces involved in border security.




Inspection of Bureau of Administration, Ofﬁce
of Language Services (ISP-I-06-47)

The Ofﬁce of Language Services (LS) in the Bureau of Administration effectively
delivered timely, world-class interpreting and translating services to the President,
cabinet-level ofﬁcers, federal agencies, and the District of Columbia courts. The
employees and contractors in the ofﬁce ranked among the world’s top interpreters
and translators.

The most signiﬁcant challenge facing LS was recruiting a pool of direct-hire em-
ployees and contractors who are among the world’s best interpreters and translators.
However, the Ofﬁce of Personnel Management’s applicant-rating procedures and
stringent security clearance requirements have hindered the recruitment of direct-
hire employees.


Ofﬁce of Inspector General Semiannual Report to the Congress, April 1, 2006, to September 30, 2006   35
Inspection of the Bureau of Administration,
Ofﬁce of Allowances (ISP-I-06-51)

The Ofﬁce of Allowances (ALS) is a well-functioning ofﬁce that coordinates poli-
cies, regulations, standards, and procedures for overseas allowances and differential
payments applicable to U.S. government civilian employees throughout the federal
government. ALS played a constructive role in the development of beneﬁts pack-
ages for employees serving in Iraq and Afghanistan and quickly implemented statuto-
rily authorized changes to allowance levels at these posts.

Neither ALS, nor any other ofﬁce in the Department, measured the effectiveness of
Department of State Standardized Regulations incentive allowances and differentials.
As a result, the effectiveness of the Department’s $80.9 million in expenditures to
attract and retain personnel at overseas hardship and danger pay posts could not be
demonstrated. The OIG team recommended that the Department establish a work-
ing group to establish performance measures for Department of State Standardized
Regulations incentive allowances and differentials.

Internal controls to monitor embassies and consulates that are delinquent in sub-
mitting required allowances reports also needed improvement. Some posts had not
submitted required danger pay, post hardship differential, and cost of living reports
in many years. The OIG team recommended that the Bureau of Administration
establish and implement written standard operating procedures to address delinquent
allowance reports submitted by overseas posts.


                 Department Guidance on Stafﬁng Surges

      In its memorandum report on ICASS (ISP-I-06-38), OIG found that agen-
      cies believed that ICASS was not ﬂexible or responsive enough to provide
      adequate administrative services to agencies with surging workloads. The
      OIG team recommended that the Ofﬁce of Rightsizing the U.S. Govern-
      ment Overseas Presence provide guidance and information regarding
      the site assistance available to missions to facilitate quicker responses to
      surge agencies’ requests for operational support. The Department issued
      the guidance in a cable sent to all diplomatic and consular posts on Sep-
      tember 12, 2006.




 36       Ofﬁce of Inspector General Semiannual Report to the Congress, April 1, 2006, to September 30, 2006
U.S. Speaker and Specialist Program Review
Bureau of International Information Programs
(ISP-C-06-52)

In response to a Congressional request, OIG examined whether there was a “litmus
test” for speaker selection in the U.S. Speaker and Specialist Program. The OIG
team determined that no such test exists. In the past, there was undue attention to
the speaker selection process, which led to the Bureau of International Information
Programs (IIP) staff ’s self-censorship in the vetting and selection of speakers. How-
ever, public diplomacy leadership in the Department emphasized a realistic balance
in the selection of speakers. The Strategic Speakers Initiative was a new concept
with great potential, and should continue as a more focused stand-alone program to
allow articulation on strategic policy issues.

There was a continuing need for the development of a speakers’ evaluation matrix,
which could provide the objective basis for program analysis and a management tool
at all levels. Many individuals within IIP continued to view themselves as separate
from the Department, which had an adverse impact on maximizing the U.S. Speaker
and Specialist Program potential.



OVERSEAS MISSIONS
           Personal Security Awareness Programs at Overseas
                              Missions

    In a memorandum to the Assistant Secretary for Diplomatic Security,
    OIG summarized the results of a review of personal security awareness
    programs at 14 missions inspected during FY 2006. All 14 missions had
    viable personal security awareness programs that met 12 FAM require-
    ments, and some posts exceeded those requirements. All regional secu-
    rity ofﬁcers (RSO) at the inspected posts had the support of the executive
    ofﬁce in enforcing security awareness. However, mission personnel’s
    receptiveness to security awareness depended on the RSO’s effort, inter-
    est, and type of approach. Responsibility for personal security awareness
    required positive reinforcement of the RSO-managed program. In general,
    the Department’s personal security awareness program increased overall
    security at missions overseas.




Ofﬁce of Inspector General Semiannual Report to the Congress, April 1, 2006, to September 30, 2006   37
Inspection of Embassy Panama City, Panama
(ISP-I-06-30A)

OIG’s inspection of Embassy Panama City found that the dispersion of mission
personnel among 11 buildings negatively affected mission cohesion. Mission leader-
ship was working actively to create a sense of community well before most elements
of the mission relocate to a new embassy compound (NEC) in the summer of 2007.

The mission management team needed to ensure that the entire mission was con-
ducting the necessary strategic planning for the move to a new chancery in 2007.
This was an opportunity to consolidate administrative services among agencies and
to conduct a rightsizing exercise.

Embassy Panama City’s management operations had improved, but management
needed to implement remedial action in the areas of ICASS, human resources, and
some parts of the general services unit. The successful implementation of an ambi-
tious mentoring program should staunch the attrition of talented entry-level ofﬁcers
in Panama over the last few years.



Inspection of Embassy San Salvador, El Salvador
(ISP-I-06-31A)

Embassy San Salvador’s Ambassador and deputy chief of mission (DCM) provided
the mission security program with excellent support and cooperation, and the secu-
rity ofﬁce enjoyed a positive reputation among mission staff members. The local
guard and personal security programs at this critical crime threat embassy were man-
aged effectively, efﬁciently, and in line with Department policies.

Embassy San Salvador was making a concerted effort to eliminate duplicative admin-
istrative support systems and deserved credit for recognizing and proactively address-
ing this inefﬁciency.




38      Ofﬁce of Inspector General Semiannual Report to the Congress, April 1, 2006, to September 30, 2006
Inspection of Embassy San José, Costa Rica
(ISP-I-06-32A)

The relatively new Ambassador and DCM were honing mission objectives through
an improved Mission Performance Plan (MPP). Promoting Costa Rica’s adoption of
the Central American Free Trade Agreement remained the main mission priority.

The growing number of resident and visiting Americans to Costa Rica had taxed the
consular section’s ability to adequately address American citizen services. With the
expected increased stafﬁng, and the completion of a current project to expand the
cramped consular ofﬁces, the consular section should be well positioned to give qual-
ity service to all clients. The Ambassador and DCM provided the regional security
ofﬁce with solid support. Residential security and increased awareness training were
helping to address the reality of rising crime rates in San José.


      Impact of Department of Homeland Security Expansion
       Overseas on Chief of Mission Authorities (ISP-I-06-26)

    The rapid expansion of international activities by constituent agencies of
    the Department of Homeland Security (DHS) occurred before the DHS
    central ofﬁce had consolidated its own authorities and stafﬁng. Individual
    DHS subunits had sought to place their direct-hire staff at diplomatic mis-
    sions overseas without direct coordination by a central DHS international
    ofﬁce. This expansion of DHS assets at U.S. embassies created oversight
    and coordination difﬁculties for U.S. Ambassadors.

    The Departments of State and Homeland Security have signed a series
    of memoranda of understanding and at least one memorandum of agree-
    ment in an effort to streamline procedures for the assignment of DHS staff
    to Foreign Service posts overseas. In light of the ongoing coordination
    issues arising in the ﬁeld, however, a standing coordination mechanism
    was needed.

    There was also a need for the Department and DHS to issue further clari-
    ﬁcations to chiefs of missions as to the respective roles of the DHS visa
    security ofﬁcers, the consular fraud ofﬁcers, and RSOs engaged in anti-
    fraud work in consular sections abroad.




Ofﬁce of Inspector General Semiannual Report to the Congress, April 1, 2006, to September 30, 2006   39
       Best Practice: Partnering for Security with the American
       Chamber of Commerce

       Issue: The RSO at Embassy Riga established the ﬁrst Overseas
       Security Advisory Council in Latvia and the Baltic states. The
       RSO negotiated for the American Chamber of Commerce to serve
       as a base of support and successfully invited other members of
       the American community into the council.

       Response: The council had representatives from the international
       schools, the U.S. missionary community, and other nongovern-
       mental organizations in Latvia.

       Result: The embassy and the American community were better
       able to communicate and coordinate in enhancing the communi-
       ty’s security.




Inspection of Embassy Riga, Latvia (ISP-I-06-39A)

Overall, Embassy Riga’s component elements had performed exceptionally. The
political/economic section was the driving element in managing the bilateral rela-
tionship under the Ambassador’s direction. The consular section was well run and
provided good customer service. The management section received high marks for
its support to the mission. Meanwhile, the troubled public affairs section was being
restructured to reﬂect better the embassy’s public diplomacy priorities.

The embassy faced major challenges, including Latvia’s October 2006 national elec-
tions and the need to support the November 2006 summit of the North Atlantic
Treaty Organization, which was to be held in Riga. The embassy must soon identify
a site for a new embassy compound and ﬁnd a new residence for the Ambassador.

The intolerance of certain segments of Latvia’s population towards minorities had
led to incidents directed against mission staff and family members. The embassy
was exemplary in handling this challenge.




 40     Ofﬁce of Inspector General Semiannual Report to the Congress, April 1, 2006, to September 30, 2006
Inspection of Embassy Santiago, Chile (ISP-I-06-45A)

Embassy Santiago had met or exceeded the Department’s policy advocacy goals of
greater Chilean leadership in support of democracy and free markets and continued
Chilean participation in United Nations’ peacekeeping activities in Haiti and else-
where. Implementation of the U.S.-Chile Free Trade Agreement had generated an
increase in bilateral trade of more than 80 percent.

Public diplomacy programming was strong and well rounded, but would have greater
impact if it were linked more closely to the mission’s strategic priorities. Law en-
forcement entities at post readily shared information on their respective programs
but greater coordination was warranted to maximize the impact of these programs.
The embassy facilitated high-value bilateral cooperation in science, technology, and
the environment. All major management systems were in place and functioning.
However, there was poor delivery of many administrative support services.



Inspection of Embassy Budapest, Hungary
(ISP-I-06-46A)

Embassy Budapest worked successfully to maintain close bilateral relations while ef-
fectively pressing U.S. positions on a full range of issues. The post’s various sections
and agencies were well integrated into a coherent and well-led operation that had
clear leadership.

Embassy operations were hampered because they were spread over four different
buildings. The government of Hungary had offered to exchange the Marine House
(a historic property) for two buildings adjacent to the chancery and said it would
rehabilitate those buildings to meet U.S. requirements. The OIG team recommended
that the Department expeditiously gather needed information and negotiate a pack-
age for exchanging the properties with the government of Hungary.



Inspection of Consulate General Hamilton, Bermuda
(ISP-I-06-48)

Consulate General Hamilton had a successful public diplomacy program that was
led by a consul general who had invigorated the bilateral governmental relationship

Ofﬁce of Inspector General Semiannual Report to the Congress, April 1, 2006, to September 30, 2006   41
and strengthened the positive image of the United States in Bermuda. Given the
demands of global repositioning, the consulate general should be restructured and
its staff reduced. A two-ofﬁcer post would be sufﬁcient to manage U.S. interests and
provide a lessened but adequate level of consular services. The Bureau of Western
Hemisphere Affairs should take over responsibility for Consulate General Hamilton
from the Bureau of European and Eurasian Affairs.



Inspection of Embassy Buenos Aires, Argentina
(ISP-I-06-49A)

Embassy Buenos Aires’ front ofﬁce team had fostered excellent interagency coopera-
tion and orchestrated impressive law enforcement and security cooperation with Ar-
gentine authorities. The public affairs and public diplomacy programs supported all
of the post’s Mission Performance Plan goals, but to improve the Argentine public’s
predominately negative opinion about the United States, the embassy’s public affairs
section needed more tools to allow it to concentrate on programming with the most
impact. The consular section was still working hard to rebuild its capacity follow-
ing Argentina’s 2002 loss of the visa waiver program and the country’s unexpectedly
robust economic resurgence.

The growing crime and illicit drug trafﬁcking in Argentina, combined with the re-
gional political shifts that signal reduced cooperation by neighboring governments
with U.S. counternarcotics programs, had increased the need for bilateral cooperation
with Argentine law enforcement ofﬁcials. INL should adjust its program
accordingly.

The embassy organized the President’s participation in the November 2005 Sum-
mit of the Americas. The post’s overall performance in support of this summit was
good, but some ﬁnancial issues remained unresolved at the time of the inspection.




 42     Ofﬁce of Inspector General Semiannual Report to the Congress, April 1, 2006, to September 30, 2006
                    INFORMATION TECHNOLOGY



Protecting critical information and information systems continues to receive signiﬁ-
cant congressional and executive management attention. The Federal Information
Security Management Act (FISMA) requires the OIG to review and evaluate devel-
opment, documentation, and implementation of comprehensive plans to protect the
conﬁdentiality, integrity, and availability of mission critical information and systems.
FISMA provides a framework for ensuring the “effectiveness of security controls
over information resources and systems that support Federal operations and assets.”

As part of the annual FISMA requirement, OIG evaluated information management
and information security operations at the Department, BBG, and the Department’s
intelligence community constituency. A number of issues were identiﬁed, including
documentation related to mission-wide security program planning and management,
system and policy access controls, inadequate separation of key information technol-
ogy (IT) duties, change control management for hardware and software deployment,
and IT service continuity planning documentation. OIG teams also identiﬁed miss-
ing or inadequate systems documentation including standard operating procedures,
security plans, and contingency plans. Further, they identiﬁed inconsistent IT train-
ing, inadequate resources, and lack of centralized operations for end-user support.

Earlier during this semiannual reporting period, the OIG Ofﬁce of Information
Technology worked with ISP as part of a larger multidisciplinary OIG team inspect-
ing PRM, the Ofﬁce of Medical Services, and BBG’s Ofﬁce of Engineering and
Technology (BBG/E), and Ofﬁce of Program Review. Overseas posts it inspected
included U.S. embassies in Buenos Aires, Santiago, Warsaw, Budapest, and Riga. In
response to these inspections, the Department is correcting deﬁciencies noted re-
garding system security controls, IT training, standardization and regionalization of
IT support services, certiﬁcation and accreditation, patch management, and informa-
tion systems security ofﬁcer (ISSO) program.



Review of the Information Security Program
at the Department of State (IT-I-06-03)

OIG’s 2006 FISMA review determined that the Department had made progress in
its internal and external reporting of computer security incidents, and made signiﬁ-
cant progress in addressing privacy requirements. However, there were several areas


Ofﬁce of Inspector General Semiannual Report to the Congress, April 1, 2006, to September 30, 2006   43
that still remain to be addressed by senior management, issues also reported in OIG’s
2004 and 2005 FISMA reviews.

The Department had not taken adequate steps to verify that appropriate security
levels are being assigned to IT applications and systems. System owners had been
given the responsibility to determine security level determinations for their respective
systems and applications. However, there was no assurance that appropriate classi-
ﬁcation of applications and systems was being done, and the Department needed to
address issues pertaining to its ISSO program.

Further, the Department still needed to identify the total number of Department
employees required to take IT security awareness training, and there were concerns
with the different approaches being used to the certiﬁcation and accreditation (C&A)
process. In addition to bureaus performing their own certiﬁcation and accredita-
tion on their respective systems, program ofﬁcials were sharing dual responsibility
for applications and systems, resulting in potential duplication of effort. Finally, the
Department needed to ensure that IT security ﬁndings identiﬁed by all other sources
were addressed through the Plan of Action and Milestones (POA&M) process.



Summary of FY 2005 Information Systems
Security Issues (IT-I-06-01)

Information systems security continues to receive signiﬁcant congressional and ex-
ecutive management attention. Although the Department installs advanced informa-
tion systems to support its business processes and requirements, information security
efforts to stay abreast of those advances in technology must improve.

During FY 2005 inspections of 34 posts and bureaus, OIG gained valuable insight
into the Department’s ongoing information systems security effort. The inspections
uncovered systems security issues that crossed regional and bureau boundaries, al-
lowing OIG to suggest several areas for improvement Department-wide. This report
highlighted new issues and those from previous inspections identiﬁed as not being
resolved during the last round of OIG inspections, and detailed ﬁndings of systemic
information security weaknesses in the ISSO program, patch management proce-
dures, conﬁguration management plans, and planning documentation.

The ISSO program continued to fall below the expectations of its role in the “de-
fense-in-depth” strategy, and more needed to be done to ensure a consistent and
effective ISSO program at every mission. Nearly half of the inspections conducted
by OIG reported shortcomings in the ISSO program, including inattention to user

 44     Ofﬁce of Inspector General Semiannual Report to the Congress, April 1, 2006, to September 30, 2006
libraries, mailboxes for classiﬁed material being stored on the unclassiﬁed systems,
inadequate separation of duties among IT staff, missing or inadequate essential
systems security documentation and conﬁguration settings that deviate from Depart-
ment standards.




Ofﬁce of Inspector General Semiannual Report to the Congress, April 1, 2006, to September 30, 2006   45
46   Ofﬁce of Inspector General Semiannual Report to the Congress, April 1, 2006, to September 30, 2006
                               INVESTIGATIONS




PROCUREMENT FRAUD
OIG’s Ofﬁce of Investigations (INV), with the assistance of the Ofﬁce of Audits,
conducted an investigation of a Department vendor who double-billed the Depart-
ment for the purchase of blank compact discs over a two-year period. The investiga-
tion determined that the vendor billed for approximately 130,000 compact discs that
it never delivered to the Department. The charges were placed on the government
purchase credit card of a Department employee who had retired without the card
being deactivated.

On September 6, 2006, the owner of the company that supplied the compact discs
to the Department pleaded guilty to embezzlement in U.S. District Court and was
sentenced to eight months imprisonment, two months home detention, three years
supervised release, $100 special assessment and $103,951.86 of restitution payments
that begin three months after he completes his prison sentence.



PASSPORT FRAUD
As part of its ongoing Passport Sentinel initiative, OIG opened an investigation of
a private citizen in California who fraudulently obtained a valid U.S. passport. A
joint investigation with DS determined that the subject obtained the passport using
a false identity established under the name and social security number of a deceased
infant. The subject was arrested, and on April 10, 2006, pleaded guilty to one count
of making false statements on a passport application, and sentencing of the subject
is currently pending.

Also as part of the Passport Sentinel initiative, OIG conducted two other separate
investigations of private citizens in California who also fraudulently obtained valid
U.S. passports using false identities established under the names and social security
numbers of deceased infants. Joint investigations on the cases were conducted with
DS and the DHS Bureau of Immigration and Customs Enforcement. The subjects
were arrested on April 18, 2006, and May 9, 2006, respectively, and their prosecution
is pending.


Ofﬁce of Inspector General Semiannual Report to the Congress, April 1, 2006, to September 30, 2006   47
FALSE CLAIMS

OIG conducted a joint investigation with DS involving a former embassy Foreign
Service National (FSN) employee who traveled to the United States for training in
2002 on a Distinguished International Visitor (J-1) visa. The FSN never showed up
for his training program, and instead requested political asylum by claiming that he
was being persecuted in his home country.

The former FSN employee owed the Department for funds he received for his of-
ﬁcial travel to the United States. The subject reached an agreement with the civil
division of the U.S. Attorney’s Ofﬁce for the District of Columbia to repay $6,443 in
funds provided by the Department for his travel.


OIG conducted an investigation of a Foreign Service ofﬁcer who submitted an
improper claim for Separate Maintenance Allowance (SMA) payments. The ofﬁcer
was ineligible for SMA because his spouse was also a Foreign Service ofﬁcer. The
investigation determined that the ofﬁcer made the SMA claim after receiving errone-
ous advice from a management ofﬁcer at his post. As a result of the investigation,
on July 17, 2006, the Bureau of Resource Management has informed OIG that the
ofﬁcer had entered into an agreement to repay the $7,478.25 in SMA payments he
received.



FOLLOW-UP ACTIONS

EMBEZZLEMENT

OIG conducted a joint investigation with DS concerning multiple allegations of
wrongdoing by three DS agents. The issues investigated included allegations that the
DS agents converted an estimated $20,000 in government property for their per-
sonal use and also misused government vehicles. The investigation determined that,
while serving at a U.S. embassy overseas, the agents made unauthorized purchases of
electronic equipment, clothing, weapons, and ammunition for their personal use. DS
investigated additional professional misconduct allegations against the three agents.




48      Ofﬁce of Inspector General Semiannual Report to the Congress, April 1, 2006, to September 30, 2006
The Bureau of Human Resources (HR) recommended that one of the agents be
terminated, (action subsequently reduced to a 90-day suspension). On February 23,
2006, HR recommended that a second agent be terminated from employment. On
March 23, 2006, HR proposed that the third agent be suspended for 45 days. (OIG
was not advised by HR of the ﬁnal disposition of this case until after the end of the previous semi-
annual reporting period). (See OIG Semiannual Report, October 1, 2004, to March 31,
2005, pp 51-52)


A joint investigation with USAID’s, Ofﬁce of Inspector General, determined that
an FSN cashier serving at an embassy in Africa embezzled more than $200,000 from
USAID and the Department. The investigation revealed that the cashier embezzled
approximately $120,000 from the USAID mission during a ten-year period ending
in 2003. Subsequently, the subject was employed by the embassy and embezzled ap-
proximately another $93,000 before the thefts were uncovered in early 2005. When
interviewed by agents of both agencies, the subject confessed to both embezzle-
ments and was subsequently indicted by a Federal Grand Jury in Charleston, South
Carolina.

On December 29, 2005, the former cashier pleaded guilty to embezzlement. On
May 23, 2006, the subject was sentenced to 30 months imprisonment and restitution
to the government in the amount of $214,000. (See OIG Semiannual Report,
October 1, 2005, to March 31, 2006, p 47)


OIG investigated two Department timekeepers who conspired to fraudulently claim
overtime by forging their supervisors’ signatures on time and attendance certiﬁca-
tions and by entering false information into the Department’s computerized time and
attendance system. Over several years, the two timekeepers submitted approximately
$100,000 in fraudulent overtime claims. On January 4, 2006, HR proposed that one
of the timekeepers be terminated. The other timekeeper resigned shortly afterward.

After their cases were referred to the U.S. Attorney’s Ofﬁce, Eastern District of
Virginia, one of the timekeepers pleaded guilty to the scheme. On May 12, 2006,
she was sentenced in U.S. District Court to ﬁve months conﬁnement, two years of
supervised release, and restitution of $96,000. Prosecution of the other timekeeper
is still pending. (See OIG Semiannual Report, October 1, 2005, to March 31, 2006,
p 47)


OIG opened an investigation into allegations that a Department employee was sleep-
ing on the job during work hours. The investigation determined that the employee
was working full time as a contract employee for the Department during the day

Ofﬁce of Inspector General Semiannual Report to the Congress, April 1, 2006, to September 30, 2006     49
and full time as a regular Department employee at night. The investigation deter-
mined that the employee was absent without leave from his regular Department
duties for a total of 502 hours from January 2002 until May 2003. OIG referred the
matter to HR for adjudication. OIG also issued a Management Assistance Report to
the Department’s Ofﬁce of Legal Adviser suggesting that the Department’s ethical
guidelines should be changed so that full-time Department employees cannot simul-
taneously be employed as Department contract employees.

On July 13, 2005, HR proposed that the employee be terminated from his Depart-
ment of State employment. On April 12, 2006, HR issued its ﬁnal disposition,
reducing the proposed termination of the employee to a 60-day suspension and
assessing the employee a total of $13,292.40 in restitution for salary paid during his
absences. (See OIG Semiannual Report, April 1, 2005, to September 30, 2005,
p 58)


OIG opened an investigation into allegations that a DS agent submitted a false claim
for SMA payments. The investigation determined that the agent received $4,570 in
SMA payments, despite having been legally separated from his spouse prior to his
application for the SMA. On February 16, 2005, HR proposed a ﬁve-day suspension
of the agent for improperly receiving SMA beneﬁts. On June 16, 2006, the Bu-
reau of Resource Management informed OIG that it had initiated collection action
against the employee in the amount of $4570. (See OIG Semiannual Report,
October 1, 2004, to March 31, 2005, p 51)



Types of Cases*
                                           All Other, 8%




               Conflict of Interest, 12%
                                                                                   Passport & Visa Fraud,
                                                                                            32%




       Contract & Procurement
             Fraud, 15%




                                                                                    Employee Misconduct,
                                                                                            5%
                                                           Embezzlement & Theft,
                                                                   17%

                           False Statements &
                              Claims, 12%



                                   * = May not equal 100% due to rounding.


50      Ofﬁce of Inspector General Semiannual Report to the Congress, April 1, 2006, to September 30, 2006
Hotline
                          Held for action within OIG                           31
                          Referral to other ofﬁces for action                 151
                          No action necessary                                  93
                          Total Hotline contacts received                     275




Ofﬁce of Inspector General Semiannual Report to the Congress, April 1, 2006, to September 30, 2006   51
52   Ofﬁce of Inspector General Semiannual Report to the Congress, April 1, 2006, to September 30, 2006
APPENDIX 1: DEPARTMENT OF STATE INVESTIGATIVE ACTIVITIES




      Criminal Investigative Activities

      Indictments/Information                                                        3
      Convictions                                                                    1
      Sentencings                                                                    3
      -        Jail                                                                 35 Months
      -        Probation                                                            60 Months
      Referrals for Prosecution                                                      6
      Referrals for Prosecution Declined                                             3
      Criminal Judgments/Restitutions                                         $414,271.55

      Civil Investigative Activities

      Civil Referrals                                                               0
      Civil Declinations                                                            0
      Civil Recoveries                                                         $4,094.20

      Administrative Investigative Activities

      Administrative Referrals                                                       5
      Personnel Actions
          -        Removals                                                          1
          -        Suspensions                                                       2
          -        Reprimands/Admonishments                                          0
          -        Reimbursements                                                    3
      Administrative Recoveries                                               $ 25,305.06

      Total Investigative Recoveries (Judicial and Administrative)           $443,670.81

      Investigative Workload

      Cases Pending (3/31/06)                                                       56
      New Cases Opened                                                              14
      Cases Closed                                                                  10
      Cases Pending (9/30/06)                                                       60
      Preliminary Inquiries Pending (3/31/06)                                        2
      Preliminary Inquiries Opened                                                   9
      Preliminary Inquiries Closed                                                   5
      Preliminary Inquiries Converted to Cases                                       1
      Preliminary Inquiries Pending (9/30/06)                                        5




      Ofﬁce of Inspector General Semiannual Report to the Congress, April 1, 2006, to September 30, 2006   53
54   Ofﬁce of Inspector General Semiannual Report to the Congress, April 1, 2006, to September 30, 2006
                 APPENDIX 2: REPORTS ISSUED


                                          AUDITS

AUD/IQO-06-30            Survey of the Status of Funding for Iraq Programs
                         Allocated to the Department of State’s Bureau of
                         International Narcotics and Law Enforcement Affairs as of
                         December 31, 2005

AUD/CG-06-25             Application of Agreed-Upon Procedures on Kellogg,
                         Brown & Root Services, Inc.’s, Revised Termination
                         Settlement Proposal

AUD/CG-06-26             Application of Agreed-Upon Procedures on Choctaw
                         Archiving Enterprise’s Proposed Direct and Indirect Labor
                         Rates and Accounting System

AUD/CG-06-28             Agreed-Upon Procedures American Councils for
                         International Education

AUD/CG-06-29             Agreed-Upon Procedures on Direct Labor and Indirect
                         Expense Rates Proposed by Skidmore, Owings & Merrill

AUD/CG-06-34             Agreed-Upon Procedures on Direct Labor and Indirect
                         Expense Rates Proposed by Integrated Communications
                         Solutions, Inc.

AUD/FM-06-23             Assessment of Airline Travel

AUD/FM-06-32             Management Letter Related to the Audit of the U.S.
                         Department of State 2005 and 2004 Principal Financial
                         Statements

AUD/FM-06-33             Audit of the International Boundary and Water
                         Commission’s 2005 and 2004 Financial Statements

AUD/FM-06-37             Audit of the Foreign Service Retirement and Disability
                         Fund’s 2005, 2004, and 2003 Financial Statements




Ofﬁce of Inspector General Semiannual Report to the Congress, April 1, 2006, to September 30, 2006   55
       AUD/FM-06-38              Audit of the Department’s Identiﬁcation and Collection of
                                 Value-Added Taxes Overseas

       AUD/FM-06-39              Need to Improve Internal Controls Related to Travel
                                 Advances

       AUD/FM-06-40              Application of Agreed-Upon Procedures for Retirement,
                                 Health Beneﬁts, and Life Insurance Withholdings and
                                 Contributions

       AUD/IP-06-35              Audit of the Department’s Reporting of Aircraft and
                                 Aircraft Parts

                                              INSPECTIONS

       ISP/IQO-06-50             Survey of Anticorruption Programs, Embassy Baghdad,
                                 Iraq

       ISP-I-06-26               Impact of Department of Homeland Security Expansion
                                 Overseas on Chief of Mission Authorities

       ISP-I-06-28               Inspection of the Ofﬁce of Casualty Assistance

       ISP-I-06-29               Inspection of the Family Liaison Ofﬁce

       ISP-I-06-33               Inspection of Global Financial Services – Charleston


       ISP-I-06-34               Inspection of the Ofﬁce of Medical Services

       ISP-I-06-35               Inspection of the Bureau of Administration, Ofﬁce of
                                 Commissary and Recreation Staff

       ISP-I-06-36               Inspection of the Bureau of Administration, Ofﬁce of
                                 Overseas Schools

       ISP-I-06-38               Memorandum Report, International Cooperative
                                 Administrative Support Services

       ISP-I-06-40               Inspection of the Bureau of Population, Refugees and
                                 Migration




56   Ofﬁce of Inspector General Semiannual Report to the Congress, April 1, 2006, to September 30, 2006
ISP-I-06-41               Inspection of the Ofﬁce of Civil Rights

ISP-I-06-43               Review of the Bureau of Diplomatic Security’s Revocation
                          Process for Security Clearances

ISP-I-06-47               Inspection of the Bureau of Administration, Ofﬁce of
                          Language Services

ISP-I-06-51               Inspection of the Bureau of Administration, Ofﬁce of
                          Allowances

ISP-C-06-52               U.S. Speaker and Specialist Program Review Bureau of
                           International Information Programs

ISP-I-06-30A              Inspection of Embassy Panama City, Panama

ISP-I-06-31A              Inspection of Embassy San Salvador, El Salvador

ISP-I-06-32A              Inspection of Embassy San Jose, Costa Rica

ISP-I-06-39A              Inspection of Embassy Riga, Latvia

ISP-I-06-45A             Inspection of Embassy Santiago, Chile

ISP-I-06-46A             Inspection of Embassy Budapest, Hungary

ISP-I-06-48               Inspection of Consulate General Hamilton, Bermuda

ISP-I-06-49A             Inspection of Embassy Buenos Aires, Argentina

                            INFORMATION TECHNOLOGY

IT-I-06-01                Summary of FY 2005 Information Systems Security Issues

IT-I-06-03                Annual FISMA Review of the Information Security
                          Program at the Department of State

                                  SECURITY ANNEXES



ISP-S-06-30A              Inspection of Embassy Panama City, Panama
ISP-S-06-31A              Inspection of Embassy San Salvador, El Salvador

Ofﬁce of Inspector General Semiannual Report to the Congress, April 1, 2006, to September 30, 2006   57
ISP-S-06-32A          Inspection of Embassy San Jose, Costa Rica
ISP-S-06-39A          Inspection of Embassy Riga, Latvia
ISP-S-06-46A          Inspection of Embassy Budapest, Hungary
ISP-S-06-45A          Inspection of Embassy Santiago, Chile
ISP-S-06-49A          Inspection of Embassy Buenos Aires, Argentina




58    Ofﬁce of Inspector General Semiannual Report to the Congress, April 1, 2006, to September 30, 2006
APPENDIX 3: SAVINGS AND MORE EFFECTIVE USE OF RESOURCES

                                                                Table 1
                                              Inspector General Issued Audit Reports
                                                        With Questioned Costs
                                                            (Dollars in Thousands)

                                                           Number               Questioned    Unsupported
                                                           of Reports            Costs           Costs
      A.       For which no management
               decision has been made by the
               commencement of the reporting               24                   $26,497          $12,975
               period

      B.       Which were issued during the
               reporting period                            1                       795              532
               Subtotals (A +B)                            25                   27,292            13,028

      C.       For which a management decision
               was made during the report period -          1

               based on formal administrative or
               judicial appeal
               (i) dollar value of cost disallowed                                   13             1

               (ii) dollar value of costs not disallowed                              0             0

      D.       For which no management decision
               has been made by the end of reporting
               period                                24                         27,279            13,027

               Reports for which no
               management decision was made
               within 6 months of issuance                 23                   26,484            12,922


                                                           Table 2
                                     Inspector General Issued Audit Reports with
                                  Recommendations That Funds Be Put To Better Use
                                                                                               Dollar Value
                                                                               Number        (In Thousands)
      .A   For which no management decision has
           been made by the commencement of the
           reporting period.                                                     3               $ 29,886

      B.   Which were issued during the reporting
           period.                                                               3                15,602

           Subtotals (A+B)                                                       6                45,488

      C.   For which a management decision was
           made during the reporting period.                                     0                   0
           (i) dollar value of recommendations that
              were agreed to by management
              –based on proposed management action
              –based on proposed legislative action
           (ii) dollar value of recommendations
              that were not agreed to by management
      D.   For which no management decision has been
           made by the end of the reporting period.                              6                45,488
           Reports for which no management decision
           was made within 6 months of issuance                                  3                29,886


      Ofﬁce of Inspector General Semiannual Report to the Congress, April 1, 2006, to September 30, 2006      59
60   Ofﬁce of Inspector General Semiannual Report to the Congress, April 1, 2006, to September 30, 2006
APPENDIX 4: RESOLUTION OF REPORTS AND RECOMMENDATIONS


                  Signiﬁcant recommendations pending ﬁnal action
      Ofﬁce of Audits
      AUD/CG-02-44              1       Awards to the Iraqi National Congress           10/31/2002

                                        OIG recommend that the A/ALM/AQM grants
                                        ofﬁcer, in coordination with the Bureau of Near
                                        Eastern Affairs, should withhold, or at least restrict,
                                        future funding to the Iraqi National Congress
                                        Support Foundation until the Foundation has
                                        implemented adequate and transparent ﬁnancial con-
                                        trols.

      AUD/CG-05-28              1       Review of Lutheran Immigration and Refugee Service’s
                                        Reception and Placement Program              06/07/2005

                                       OIG recommended that the PRM grants ofﬁcer
                                       require the Lutheran Immigration and Refugee Ser-
                                       vice and its subrecipients to (1) reimburse the Depart-
                                       ment for unallowable costs totaling $48,000 and (2)
                                       provide any additional supporting documentation to
                                       the Department so that an appropriate determination
                                       can be made regarding unsupported costs totaling
                                       $606,000.

      AUD/FM-05-06             1       Assessment of the Certiﬁcation and           12/01/2004
                                       Accreditation, Change Management, and Patch Management
                                       Process

                                       The Bureau of Information Resource Management
                                       should revise the security test and evaluation of the
                                       certiﬁcation and accreditation process to include a
                                       complete vulnerability scan of the systems being as-
                                       sessed.




      Ofﬁce of Inspector General Semiannual Report to the Congress, April 1, 2006, to September 30, 2006   61
Ofﬁce of Inspections


ISP-I-06-18              Review of Middle East Partnership Initiative Coordination and
                         Implementation                                            03/2006

Recommendation 2: OIG recommended that the Bureau of Near Eastern Affairs, in
coordination with the Bureau of Administration and the Bureau of Human Resourc-
es, should provide appropriate training for grants ofﬁcer representatives.

Recommendation 3: OIG recommended that the Bureau of Near Eastern Affairs,
in coordination with the Bureau of Human Resources, should establish procedures
to ensure that ofﬁcers having Middle East Partnership Initiative responsibilities are
briefed on these responsibilities before taking up their overseas assignments.


Signiﬁcant problems, abuses, and deﬁciencies

In its review of Global Financial Services – Charleston (ISP-I-06-33), OIG identiﬁed
several serious problems:
Certiﬁcation of Payments
Most individuals certifying payments domestically at GFS-C did not have certifying
ofﬁcer authority, as required in 4 FAH-3 H-065.2; nonetheless, they have certiﬁed
payments amounting to over $6 billion in FY 2005. OIG recommended that the
Department train and designate as certifying ofﬁcers employees who are performing
certifying ofﬁcer duties domestically.

Baghdad Payroll
The compensation plan for Department employees in Iraq is virtually unworkable
and complicated. In 2005, Baghdad payroll costs totaled over $57 million for base
pay and over $13 million for premium pay. The overtime pay for some employees
appeared excessive, records were not fully reliable, and management controls on
processing time and attendance reports needed strengthening. Time and attendance
reports were forwarded for payment without the approval and signature of an autho-
rizing direct-hire ofﬁcial, contrary to 4 FAH-3 H-523.1. GFS-C nonetheless made
payments based on the incomplete reports. Based on these shortcomings, OIG
recommended that the Department perform a full-scale, multi-location audit of the
payroll procedures for Department employees in Baghdad, and implement proce-
dures to process payrolls only when the time and attendance reports are properly
prepared and approved.

 62      Ofﬁce of Inspector General Semiannual Report to the Congress, April 1, 2006, to September 30, 2006
Fund Balance with Treasury Accounts

The Fund Balance with Treasury reconciliation for the period ending December 31,
2005, showed an accumulated absolute difference of over $256 million between the
Treasury and Department records. The prior years’ differences of $204.2 million
had not been resolved. OIG recommended that the Department review the differ-
ences in the Fund Balance with Treasury Accounts, reconcile the differences from
prior ﬁscal years, and report the changes to the Treasury.




Ofﬁce of Inspector General Semiannual Report to the Congress, April 1, 2006, to September 30, 2006   63
64   Ofﬁce of Inspector General Semiannual Report to the Congress, April 1, 2006, to September 30, 2006
BROADCASTING BOARD OF GOVERNORS
                                                     October 31, 2006


MEMORANDUM

TO:            Mr. Kenneth Y. Tomlinson, Chairman
               Broadcasting Board of Governors

FROM:          OIG – Howard J. Krongard
               Inspector General

SUBJECT:       Semiannual Report to Congress, April 1 to September 30, 2006

I am pleased to transmit to you the Ofﬁce of Inspector General’s (OIG)
Semiannual Report to the Congress for the period ending September 30. This
report is required by the Inspector General Act of 1978, as amended, and covers
the work of this ofﬁce during the period indicated. The Act requires that you
transmit the report to the appropriate committees of the Congress by November
30, together with any comments you may wish to make.

During the reporting period, OIG audited the BBG purchase card program
and identiﬁed the development of the SmartTrax system by the Ofﬁce of Cuba
Broadcasting as a best practice that should be evaluated for potential use by
other BBG’s operations. OIG also audited the emergency preparedness at BBG’s
Washington Facilities and inspected the International Broadcasting Bureau’s
Ofﬁce of Performance Review.

These and other activities are summarized in this report.
                                         AUDITS




Review of the Broadcasting Board of
Governors Purchase Card Program
(AUD/IB-06-15)

OIG reviewed the Broadcasting Board of Governors’ (BBG) purchase card program
to evaluate BBG’s compliance with established federal and BBG purchase card poli-
cies and procedures. The survey scope covered domestic purchase card operations at
BBG in Washington, DC, and at Ofﬁce of Cuba Broadcasting (OCB) in Miami.

OIG obtained purchase card data for BBG and OCB for FY 2004 through May 18,
2005. These included 15,158 transactions totaling $10,390,467. For the 73 transac-
tions reviewed, OIG did not ﬁnd any improper purchases by the cardholders; how-
ever, there were instances of missing or inadequate documentation.

Government purchase cards are issued under the umbrella of the General Services
Administration’s (GSA) SmartPay Program. Under the program, agencies are to
conduct annual reviews to “continually improve program operations while ensuring
cardholders and approving ofﬁcials comply with established procurement manage-
ment practices, operating procedures, and purchase card controls.” OIG found that
BBG has not conducted the annual review of the purchase card program. In ad-
dition, BBG has not submitted the required quarterly reports on its purchase card
program to the Ofﬁce of Management and Budget.

The GSA SmartPay contract includes incentives that give BBG the opportunity to
earn rebates directly from the card provider based on factors such as sales volume
and payment performance. During the ﬁrst three quarters of FY 2005, BBG received
rebates totaling about $31,300. BBG program managers use the rebates to fund the
purchase card program’s operating expenses and for such improvements as training
for cardholders. The rebate amount is not reconciled for accuracy by BBG ﬁnancial
personnel.

The Procurement Executives Council encourages civilian agencies to expand their
use of purchase cards to at least 75 percent of procurement transactions up to
$25,000. Federal Acquisition Regulation 13.301 (b) states that agency procedures

Ofﬁce of Inspector General Semiannual Report to the Congress, April 1, 2006, to September 30, 2006   69
should not limit the use of purchase cards to micropurchases (up to $2,500), but
should encourage use of purchase cards in greater dollar amounts. During OIG’s
review, the BBG Ofﬁce of Contracts agreed to survey cardholders to collect data on
purchases being made outside the purchase card program to evaluate whether oppor-
tunities exist for expanding purchase card use.

OIG recommended that BBG formally notify program participants of the impor-
tance of maintaining supporting documentation, developing a plan and milestones
for the annual program review, and reporting quarterly to the Ofﬁce of Management
and Budget on its purchase card program. OIG also recommended that BBG estab-
lish a procedure for verifying rebate amounts and develop procedures to expand the
use of the card.

To comply with report recommendations, BBG has initiated or proposed solutions
that will strengthen accountability and internal controls. Of particular note is BBG’s
survey to expand the use of the purchase cards with the potential for cost-savings.

       Best Practice: The Development of SmartTrax–Purchase
       Card Transaction Tracker

       Issue: BBG purchase cardholders primarily use a manual system
       to record and track card purchases. The manual system is less
       efﬁcient and requires more time to complete the required steps in
       the purchase card process. The manual system also limits over-
       sight by the cardholder’s approving ofﬁcial. A BBG purchase card
       program participant in the OCB developed an automated means to
       more efﬁciently track purchase card transactions and receipts.

       Response: The SmartTrax system better organizes the admin-
       istration of the purchase card process, reconciles monthly state-
       ments of account, and prepares formal reports on card transac-
       tions.

       Results: A demonstration of SmartTrax showed how the system
       could improve efﬁciency and cardholder monitoring, and on the
       basis of that success, the OCB director of administration imple-
       mented a more user-friendly version of the system for all OCB pur-
       chase card participants. BBG program ofﬁcials wanted to evalu-
       ate the system for potential use by other BBG cardholders.




 70     Ofﬁce of Inspector General Semiannual Report to the Congress, April 1, 2006, to September 30, 2006
Audit of Emergency Preparedness at the
Washington Metropolitan Facilities of the
Broadcasting Board of Governors
(AUD/SI-06-24)

After the September 11, 2001, terrorist attacks, the federal government refocused its
domestic security needs and responsiveness requirements. Clear lines of command
and control within an organization are essential to minimize occupant and responder
casualties. Integral to preparedness are such components as effective communica-
tion networks and adequate emergency lighting, signage, and plans. Effective emer-
gency planning can substantially reduce the loss of life, risk of personal injury, or
property damage.

OIG audited BBG’s emergency preparedness to determine whether BBG had
implemented an Occupant Emergency Program in accordance with regulations and
adequately developed and distributed occupant emergency plans.

OIG found that although BBG had implemented an Occupant Emergency Pro-
gram, the guidance was outdated and did not fully comply with federal regulations.
Furthermore, BBG’s current occupant emergency plan did not comply with federal
regulations. In addition, OIG found that BBG employees were not fully aware of
emergency procedures. The audit also highlighted the need for improved commu-
nications between BBG and General Services Administration to ensure that criti-
cal emergency and safety mechanisms are installed and operational within the BBG
facilities.

OIG recommended that BBG’s International Broadcasting Bureau (IBB) update its
agency guidance; adopt, implement, and comply with pertinent regulations; and have
critical safety mechanisms installed within its Washington facilities.




Ofﬁce of Inspector General Semiannual Report to the Congress, April 1, 2006, to September 30, 2006   71
72   Ofﬁce of Inspector General Semiannual Report to the Congress, April 1, 2006, to September 30, 2006
                 INFORMATION TECHNOLOGY




Review of the Information Security Program
at the Broadcasting Board of Governors
(IT-I-06-04)

BBG has established an ambiguous reporting chain with respect to the CIO, effec-
tively negating the capacity of the CIO to act as direct adviser to the head of agency
on IT matters. The structure also hampers the perceived authority of the CIO,
negatively impacting his ability to effectively implement information security re-
quirements. BBG management has not sufﬁciently involved the CIO in its strategic
planning process or deﬁned CIO responsibilities and authorities within the process.
BBG views the CIO position as limited to the oversight of administrative IT man-
agement within the IBBs Ofﬁce of Engineering and Technical Services. By having
given the CIO insufﬁcient authority to implement requirements, BBG is deﬁcient in
complying with numerous statutory responsibilities regarding information security
and the management of information resources.

In the 2004 and 2005 FISMA reports, OIG reported that BBG had not developed an
agency-wide IT enterprise architecture. BBG has made progress regarding the enter-
prise architecture. However, there are other areas that have yet to be addressed, such
as the development of a lifecycle management program for IT assets. Additionally,
BBG has not implemented a process to be certain that its IT assets are maintained at
an acceptable service level to prevent exploitation of vulnerabilities associated with
lifecycle-management principles.




Ofﬁce of Inspector General Semiannual Report to the Congress, April 1, 2006, to September 30, 2006   73
74   Ofﬁce of Inspector General Semiannual Report to the Congress, April 1, 2006, to September 30, 2006
                                  INSPECTIONS




Inspection of the International Broadcasting
Bureau, Ofﬁce of Performance Review
(ISP-IB-06-37)


IBB’s Ofﬁce of Performance Review provides quality control by evaluating programs
and recommending improvements for IBB, the Voice of America’s language services,
and the Ofﬁce of Cuba Broadcasting. OIG found that the performance rating scores
that the Ofﬁce of Performance Review assigns have minimal effect on strategic
decisions the BBG reaches through its annual Language Service Reviews and budget
priorities. Additionally, performance rating scores also have minimal effect on IBB
senior management in its decisionmaking and serve only as a quality control process.
Problemsolving discussions and action items that result from the reviews more ef-
fectively improve broadcast services’ quality.

OIG recommended that the Ofﬁce of Performance Review raise IBB senior man-
agement’s recognition of the need to comply with action items through quarterly
prioritized lists of its most important outstanding recommendations. OIG also
recommended that the IBB prioritize signiﬁcant remaining action items and provide
the information to the Broadcasting Board of Governors for consideration during
Language Service Reviews.




Ofﬁce of Inspector General Semiannual Report to the Congress, April 1, 2006, to September 30, 2006   75
76   Ofﬁce of Inspector General Semiannual Report to the Congress, April 1, 2006, to September 30, 2006
                               INVESTIGATIONS




During this reporting period the Ofﬁce of Investigations (INV) concluded a thirteen
month investigation at the Broadcasting Board of Governors (BBG). The investiga-
tion was undertaken at the request of two U.S. Senators and one member of Con-
gress who are members of the Senate and House committees with jurisdiction over
the BBG. In August 2006, INV issued its Report of Investigation.




EMPLOYEE MISCONDUCT AND
CONTRACTING IRREGULARITIES

OIG opened an investigation into allegations that a BBG employee engaged in
extensive misuse of ofﬁcial telephones by placing personal overseas telephone calls
on a BBG telephone. BBG reported to OIG that the cost of the personal telephone
calls totaled nearly $50,000. During the investigation, however, it was determined
that the long distance carrier had charged BBG the commercial telephone rate for
the calls rather than the government rate. As a result, the long distance carrier
agreed to reimburse BBG $48,846.35 for the calls. This recovery action led BBG
to initiate a review of other long distance telephone call billings by the carrier. To
date, a grand total of the overcharges by the carrier has not been determined, but has
been estimated to be in excess of $300,000.

The BBG employee was arrested by OIG agents on July 14, 2006, and charged in
District of Columbia Superior Court with Second Degree Theft. On August 9,
2006, he was terminated from employment. Prosecution is currently pending.




Ofﬁce of Inspector General Semiannual Report to the Congress, April 1, 2006, to September 30, 2006   77
78   Ofﬁce of Inspector General Semiannual Report to the Congress, April 1, 2006, to September 30, 2006
   APPENDIX 1: BROA D C A S TING BOA RD OF GOVE RNORS
             INVE S TIGA TIVE AC TIVITIE S



 Investigative Workload                                  Number
 Cases pending 3/31/06                                   5

 New cases opened                                        1

 Cases closed                                            2

 Cases pending 9/30/06                                   4
 Preliminary inquires pending 3/31/06                    1

 Preliminary inquiries opened                            1

 Preliminary closed                                      1

 Preliminary inquiries converted to cases                0

 Preliminary inquiries pending 9/30/06                   1
 Total Judicial Actions                                  0
 Prosecutive Referral                                    1

 Prosecutive Declination                                 1

 Criminal Indictment/Arrest                              1

 Criminal Conviction                                     0

 Criminal Sentencing                                     0

 Time Sentenced                                          0 Months

 Time Probation                                          0 Months

 Court Ordered Fine                                      $0

 Court Ordered Restitution                               $0
 Total Investigative Recoveries                          $0


Ofﬁce of Inspector General Semiannual Report to the Congress, April 1, 2006, to September 30, 2006   79
80   Ofﬁce of Inspector General Semiannual Report to the Congress, April 1, 2006, to September 30, 2006
                    APPENDIX 2: RE P ORTS IS S UE D



AUD/IB-06-15             Review of the Broadcasting Board of Governors’ Purchase
                         Card Program

AUD/SI-06-24             Audit of Emergency Preparedness at the Washington
                         Metropolitan Facilities of the Broadcasting Board
                         of Governors

IT-I-06-04               Review of the Information Security Program at the
                         Broadcasting Board of Governors

ISP-IB-06-37             Inspection of the International Broadcasting Bureau’s (IBB)
                         Ofﬁce of Performance Review




Ofﬁce of Inspector General Semiannual Report to the Congress, April 1, 2006, to September 30, 2006   81
82   Ofﬁce of Inspector General Semiannual Report to the Congress, April 1, 2006, to September 30, 2006
APPENDIX 3: SAVINGS & MORE EFFECTIVE USE OF RESOURCES


                                                        Table 1
                                        Inspector General Issued Audit Reports
                                                With Questioned Costs
                                                     (Dollars in Thousands)
                                                     Number of Reports Questioned Costs     Unsupported
                                                                                               Costs
 A.      For which no management
         decision has been made by the
         commencement of the reporting
         period                                                0                 0                  0

 B.      Which were issued during the
         reporting period                                      0                 0                  0
         Subtotals (A+B)                                       0                 0                  0

 C.      For which a management decision
         was made during the report period -
         based on formal administrative or
         judicial appeal
         (i) dollar value of cost disallowed                   0                 0                  0
         (ii) dollar value of costs not disallowed             0                 0                  0

 D.      For which no management decision
         has been made by the end of reporting
         period                                                0                 0                  0
         Reports for which no
         management decision was made
         within 6 months of issuance                           0                 0                  0

                                                     Table 2
                               Inspector General Issued Audit Reports with
                            Recommendations That Funds Be Put To Better Use
                                                               Numbers                     Dollar Value
                                                                                          (in thousands)
 A.      For which no management decision has
         been made by the commencement of the
         reporting period.                                     0                               0

 B.      Which were issued during the reporting
          period.                                              0                               0
         Subtotals (A+B)                                       0                               0
 C.      For which a management decision was
          made during the reporting period.                    0                               0
          (i) dollar value of recommendations that
              were agreed to by management
                  - based on proposed management action
                  - based on proposed legislative action
         (ii) dollar value of recommendations
             that were not agreed to by management
 D.      For which no management decision has been             0                               0
 .       made by the end of the reporting period.
 .       Reports for which no management decision
         was made within 6 months of issuance.                 0                               0



 Ofﬁce of Inspector General Semiannual Report to the Congress, April 1, 2006, to September 30, 2006        83
84   Ofﬁce of Inspector General Semiannual Report to the Congress, April 1, 2006, to September 30, 2006
                         LIST OF ABBREVIATIONS




    A/LM/AQM                          Bureau of Administration, Ofﬁce of Logistics
                                      Management, Ofﬁce of Acquisition Management
    BBG                               Broadcasting Board of Governors
    DCM                               Deputy Chief of Mission
    Department                        Department of State
    DHS                               Department of Homeland Security
    DS                                Bureau of Diplomatic Security
    FISMA                             Federal Information Security Management Act
    GFS-C                             Global Financial Services - Charleston
    ICASS                             International Cooperative Administrative Support
                                      Services
    INL                               Bureau of International Narcotics and Law
                                      Enforcement
    OIG                               Ofﬁce of Inspector General
    OBO                               Bureau of Overseas Buildings Operations
    RM                                Bureau of Resource Management
    SIGIR                             Special Inspector General for Iraq Reconstruction
    USAID                             U.S. Agency for International Development
    VAT                               Value-added taxes




Ofﬁce of Inspector General Semiannual Report to the Congress, April 1, 2006, to September 30, 2006   85
                 INDEX   OF   REPORTING REQUIREMENTS
          INSPECTOR GENERAL ACT            OF     1978,   AS AMENDED




REQUIREMENT SUBJECT                                                          PAGE NUMBERS

Section 4(a)(2) Review of legislation and regulations                        10
Section 5(a)(1) Signiﬁcant problems, abuses, and deﬁciencies                 17-45, 69-71

Section 5(a)(2) Signiﬁcant recommendations for corrective action             13-46, 67-69

Section 5(a)(3) Prior signiﬁcant recommendations unimplemented               61-62

Section 5(a)(4) Matters referred to prosecutive authorities                  47-51, 77

Section 5(a)(5) Information or assistance refused                            none

Section 5(a)(6) List of reports issued                                       55-58, 81

Section 5(a)(7) Summaries of signiﬁcant reports                              17-45, 69-71

Section 5(a)(8) Audit reports–questioned costs                               59, 83

Section 5(a)(9) Audit reports–funds to be put to better use                  59, 83

Section 5(a)(10) Prior audit reports unresolved                              59-61, 83

Section 5(a)(11) Signiﬁcant revised management decisions                     none

Section 5(a)(12) Signiﬁcant management decisions with which
                 OIG disagreed                                               none




 86      Ofﬁce of Inspector General Semiannual Report to the Congress, April 1, 2006, to September 30, 2006
FRAUD, WASTE, ABUSE, OR MISMANAGEMENT
        of Federal programs and resources
                 hurts everyone.

       Call the Ofﬁce of Inspector General
                   HOTLINE
                    202/647-3320
                or 1-800-409-9926
         or e-mail oighotline@state.gov
       to report illegal or wasteful activities.

              You may also write to
            Ofﬁce of Inspector General
             U.S. Department of State
               Post Ofﬁce Box 9778
               Arlington, VA 22219

       Please visit our website at oig.state.gov

          Cables to the Inspector General
          should be slugged “OIG Channel”
             to ensure conﬁdentiality.
                BLE OF CONTENTS
